<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2004

                              ----------                              


                        THURSDAY, MARCH 20, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:01 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Conrad Burns (chairman) presiding.
    Present: Senators Burns, Stevens, Domenici, Bennett, 
Campbell, Dorgan, and Feinstein.

                       DEPARTMENT OF AGRICULTURE

                             Forest Service

STATEMENT OF DALE BOSWORTH, CHIEF
ACCOMPANIED BY HANK KASHDAN, DIRECTOR OF PROGRAM AND BUDGET ANALYSIS


               opening statement of senator conrad burns


    Senator Burns. We will call the committee to order. Senator 
Dorgan is on his way. I will make my opening statement and he 
can make his opening statement when he gets here. It is 10 a.m. 
and we are going to run on time as close as we can, and get you 
out of here. We know you have a lot of work to do, Chief, but 
we welcome you here this morning and we appreciate you coming. 
We are operating on North Dakota time here, see--Byron, thank 
you for coming this morning.
    The Chief was the regional forester in Missoula, MT, and we 
had an opportunity to work together on some of the issues that 
always seem to follow the Forest Service around. It was a 
pleasure working with him then, and it is a pleasure to work 
with him now.
    The President's budget for the Forest Service is $4.058 
billion in discretionary appropriations this time. It 
represents a modest overall increase of 2.7 percent, compared 
to the 2003 level at $3.95 billion. Most of the agency's 
programs are funded at levels similar to last year. However, I 
want to point out some that are not, and some areas that I find 
disappointing.
    There are some significant increases, however, the forest 
stewardship program at $35.5 million and the forest legacy 
program at $22.4 million, and wildfire suppression is $186 
million. I believe the increase in the wildfire suppression is 
particularly important, given the experience you have had for 
the fire seasons of the past few years.
    Last year, the Agency spent $1.3 billion putting out fires, 
and the position of the Forest Service and how they handle 
themselves should be commended. The American people are now 
aware of what we can do to manage our forests in the areas of 
prevention, and to keep small fires small fires, instead of 
having these big ones that we have experienced over the last 10 
years.


                                drought


    Last year, and of course starting back in 1988, pointed up 
that we cannot stand drought in our country and prevent these 
fires or keep them under control. The agency was forced to 
borrow $1 billion from nonfire programs, which caused 
significant disruption in many projects, and some had to be 
cancelled altogether. If the Forest Service spends as much 
money in fiscal year 2004 as they did last year, it will still 
need to borrow several million dollars from other accounts 
under the proposed budget. I hope we can work with you, Chief, 
and figure out some long-term solutions to this funding of 
fireighting costs so these disruptions can be minimized in the 
future.


                           fire preparedness


    There is also a significant decrease in the proposed 2004 
budget which I find troubling. The levels proposed for fire 
preparedness, for example. This would cause a loss of over half 
of our firefighters and engines we had on the ground last year. 
Reducing our readiness capability to this degree will only lead 
to more small fires escaping, and turning into the devastating 
fires that we have seen in the past on the evening news.


                  burned area emergency rehabilitation


    I am also concerned about the elimination of funding for 
rehabilitation and restoring burned-over lands. Two years ago 
this program was funded at the level of $142 million. We have 
had two severe fires since then, which has burned millions of 
additional acres. There are many areas in my State that burned 
in 2000 that have yet to be treated or dealt with. If these 
acres are not restored soon, they may be permanently lost to 
invasive weeds and erosion.
    Funding for backlog maintenance has also been decreased by 
$46 million, compared to the current level. This is unwise. 
However, on the financial management side I want to 
congratulate you. I am very pleased to see the agency finally 
obtained a clean audit. That is a credit to your office and 
your work. I can remember when you came in 2 years ago, looked 
at the books, and said, this is one area we really have to work 
on, otherwise we will always have a credibility problem. So I 
congratulate you on that. That is the first time that has been 
done in a long time.
    The monies--to work with you, though, not only in fire 
suppression, but prevention, stewardship, forest legacy, and 
forest health--all of these programs are necessary, and I 
believe the American people are supportive of what you are 
doing. The fires that were seen on television every evening 
were devastating fires, and hot fires. These fires took 
everything right out of the soil. Management adjustments have 
to be made for future years, if we are to see healthy forests.
    We also need to do some management work in the areas of 
disease and bark beetle infestation. I would like to work with 
you on those areas. We have some forests that need attention, 
not only in Montana, but nationwide. Those areas are being 
identified and need special emphasis.
    I thank you for coming this morning. We look forward to 
your testimony and again, congratulations on your audit. This 
is our first year at this and I look forward to working with 
Senator Dorgan of North Dakota. He is my new ranking member, 
and Peter, it is good to see you back as we start down the 
Interior appropriations. We look forward to working with our 
colleagues on both sides of the aisle as this appropriations 
process moves on.
    Senator Dorgan.


              opening statement of senator byron l. dorgan


    Senator Dorgan. Mr. Chairman, thank you very much. I, too, 
look forward to working with you. Montana and North Dakota have 
a rather lengthy common border, and I know that you know a lot 
about----
    Senator Burns. Thank God for the Little Missouri, right?
    Senator Dorgan. That is right. You know a fair amount about 
North Dakota and I know a lot about Montana, so I think we will 
get along just fine.
    Chief, thank you for being here. You run a big agency, 
34,000 people and $4 billion, a big responsibility. You and I 
met yesterday and talked a bit.
    Mr. Chairman, I just got notice a few moments ago that 
Senator Daschle has called a meeting of the Democratic 
leadership at 10:30, so I am going to have to leave earlier 
than I expected today, and I regret that is the case, but let 
me begin my opening statement, then, make a couple of points 
with Mr. Bosworth. I am going to submit some questions for the 
record, but I want to make a couple of points.


                              firefighters


    One, the chairman mentioned the issue of the firefighting 
budget. You and I talked about that yesterday, but firefighters 
have gone from 10,480 in fiscal year 2002 to 4,898 in fiscal 
year 2004, fire engines, 995 to 465 during the same period. I 
mean, it is wrong. This is not good planning. It is not good 
management. It is not an appropriate approach to these issues. 
You and I have talked about that.
    I recognize that this comes from deep in the bowels of the 
Office of Management and Budget, where they know the cost of 
everything and the value of nothing, and I understand you 
probably cannot say much about that because you are a public 
servant who is going to have to support whatever is submitted 
to us as a budget, but I think deep in your heart you know that 
this does not make sense. We have got to adequately fund 
firefighting and fire suppression and preparedness, and this is 
not the case in these budgets. It was not last year.
    We raised the point last year during the hearings and it 
was sort of just dismissed, but the fact is that this has to be 
dealt with, and doing the little tip-toe dance that Mitch 
Daniels is doing on this does not do anybody any favors. That 
is not the way to address these issues. I hope if I do not get 
a chance to tell him, you will tell him that for me.


                              leafy spurge


    Let me just--I want to show you--Mr. Bosworth, this is 
leafy spurge.
    Let me tell you something about leafy spurge. We have lands 
that you are in charge of, the Forest Service is in charge of, 
that do not deal with their weeds appropriately. The Forest 
Service is not a good neighbor, and when you have got an 
infestation of 30,000 or 40,000 acres of leafy spurge and you 
do not control them, what happens is, everyone else who is on 
the periphery of the Forest Service land is affected by it.
    The reason I brought this plant today is, I wrote an 
earmark of $200,000 in to have some additional chemicals put on 
the ground and to control leafy spurge on specific grasslands 
in North Dakota, and the fact is, I saw no evidence that that 
was put in the ground to control leafy spurge. Although the 
Forest Service did a little tap dance for me to say, well, here 
is how it happened, the fact is, I think it was subsumed into 
payment for the bureaucracy, and I did not see any evidence 
that there was additional control on the ground of leafy 
spurge, despite the fact that that is what we put the money in 
for, and we have got ranchers out there that are trying to deal 
with this, and leafy spurge is one noxious weed, but in our 
part of the territory it is one that is pretty devastating, and 
we have to control these noxious weeds on our land. This is 
Forest Service land. We have a responsibility. If regular folks 
do not control it, we are after them all the time, and the 
Federal Government has to meet its responsibility, Mr. 
Bosworth. You and I have talked about that. I know you are 
looking into this.
    At any rate, Mr. Bosworth, this is serious business for a 
lot of folks in North Dakota, and I want to work with you on 
that, and I mentioned the fire suppression. As a matter of 
fact, on forest issues we rank 50th among the 50 States in 
native forestlands in North Dakota, so I am a lot less familiar 
with forest issues than many of my colleagues, who have great 
familiarity with them, but I am anxious to work with you on 
many of these issues.


                            grazing permits


    If I might mention one additional point we have got with 
respect to our grasslands in the Cheyenne Valley, we need a new 
10-year grazing agreement, and I think on March 23 the current 
one expires, so there is great concern that we would have a 
circumstance were cattle to be taken off of those lands. You 
told me yesterday that would not be the case, and that you 
would do extensions until we reach a new agreement. For that I 
am very appreciative, and I hope we can reach an agreement.
    But Mr. Chairman, thanks for indulging me to be able to do 
this now so that I can go to that leadership meeting later.
    Senator Burns. Yes, and do not let it go to seed. That is 
all I ask.
    He brings up a good point, I also want to bring it up, and 
there is not a better place. He brought up grazing permits. We 
not only have spurge, but we have spotted knap. And now we are 
going to have a little lesson in weeds. I do not know what it 
is in Washington, D.C. Just go to one of these glitzy Grey 
Poupon and white wine receptions, and when they come around and 
they ask what your main interest is in Washington, and you say 
weeds, see how fast you are left standing there by yourself.
    It is not a big thing here. It is like yesterday morning, I 
offered to go down and help the guy get his John Deere tractor 
out of that puddle, because it is just too wet to plow there.


                             noxious weeds


    The grazing permit--because what he is trying to do, and 
this problem of noxious weeds go hand in hand, Dale. The only 
way you get this weed and spotted knap is sheep. Sheep will do 
it. You can put chemicals out there, you can fight them with 
hoses----
    Senator Dorgan. To explain, sheep eat it.
    Senator Burns. That is right. Sheep will get rid of noxious 
weeds. And it is a problem in Montana, so I appreciate--we are 
going to get along just fine. I found another weed guy. There 
are not very many of us here, Byron.
    Senator Dorgan. That is right.
    Senator Burns. But this is something that has to be dealt 
with. The grazing permits, and the control of noxious weeds go 
hand in hand in our forest management.
    Senator Dorgan. Mr. Chairman, we could do a caucus of leafy 
spurge, spotted knap, and creeping Jenny.
    Senator Burns. And Russian thistle.
    Senator Dorgan. And Russian thistle.
    Senator Burns. You bet. We could get them all.
    Senator Campbell.


          opening statement of senator ben nighthorse campbell


    Senator Campbell. Thanks, Mr. Chairman. I sure do like this 
hearing.
    It sure is a lesson. What we really need in your budget is 
something for more sheep, apparently. We probably will not have 
that, but I do know that you recognize the real danger. All of 
us come from western States that are on the committee today, 
and the fire season out there, they tell us, even though we 
have gotten a lot of snow in Colorado in the last few days, 
they say is going to be every bit as bad as it was last year, 
and as I look at the President's budget there is obviously a 
slight increase from $4.7 billion to $4.8 billion. I do not 
think that is nearly enough, and I have to associate my 
comments with Senator Dorgan. I think that maybe the best thing 
we can do is, the next time we have a big fire out there is 
press OMB into service to come out there and help fight the 
thing. Maybe they would recognize the real dangers that we 
face.
    But you know, as I travel around, like my colleagues from 
the West, we are seeing more and more indicators that because 
of insect infestation there is just mile after mile of dead 
timber, which always is going to become worse fuel this summer. 
I was down by Cortez, Colorado about 2 weeks ago, and I was 
just amazed. All the pine in that area, it is almost all dead, 
and you can just pick them out from the junipers and the other 
trees. Whatever that insect is is just attacking pines, and by 
next year there is just going to be a whole dead forest there.
    Well, in any event, you know the devastating fires we had 
in Colorado--last year between the Hayman fire and the 
Missionary Ridge fire, the cost of property. Fortunately we did 
not have many lives lost--I think only one or two, frankly, but 
it is getting worse.


                     grounded fire air tanker fleet


    But there is something else, too, that is really beginning 
to bother me, and hopefully you will address it, or I will ask 
it maybe in a question, but it is my understanding that one-
half of the whole tanker fleet is grounded now and out West, 
boy, we really rely on those planes, and I do not know how we 
are going to replace the planes or the money for the planes, 
because I imagine they are pretty darned expensive.
    A lot of those old World War II planes, the airframes are 
getting fatigued and they just cannot fly them anymore, and 
after those two tragic accidents last year I certainly 
recognize they have got to be grounded if there is a chance of 
killing some of the pilots, but out where we are, those things 
are the first responders in many cases, and I have been to a 
couple of fires where I have seen them start, seen the planes 
take off, seen them put out, all within a 1-hour period of time 
before people could even get out there, so I would like you to 
address that if you could and just let me tell you that I would 
like you to maybe also give us your prognosis about some of the 
litigation.


                           analysis paralysis


    I think all the attacks from the environmental community 
every time you want to do a prescribed burn or do a clearing is 
probably on the downside a little bit this year, because they 
are clearly recognizing they are on the wrong side of public 
opinion and most Americans, particularly out West, are saying 
we have got to do a better job of managing the forest, and I 
remember, perhaps it was last year or a year before, we were 
told that about 41 percent of the money that was used in the 
Forest Service program was either--it was called analysis 
paralysis, I think was the word they used. It was used for 
doing studies and preparing to defend yourself and, in fact, in 
defending in the actual lawsuits, and I would like to know a 
little bit more about what you see in that area, too, this 
year.
    But thank you for being here. Thank you, Mr. Chairman.
    Senator Burns. Senator Feinstein. Turn your button on, 
Dianne.
    Senator Feinstein. I have only been here for 10 years. I am 
a slow learner.
    Senator Burns. Auctioneers know how to use these things 
pretty rapid.


             opening statement of senator dianne feinstein


    Senator Feinstein. Thanks, Chief. Thank you.
    Mr. Bosworth, in California I do not think we have the 
leafy spurge or the Russian thistle, but we do have the 
Yosemite toad and the fairy shrimp, and I want to talk to you a 
little bit about the Sierra Nevada Framework Agreement.
    I very much appreciate what you have done with respect to 
the framework, particularly because it actually prevented a 
listing of the California spotted owl as threatened and 
endangered, but this past week the Forest Service announced 
that it is planning to proceed with a plan to undo some key 
elements of the framework, and I am very concerned about it, 
because I think it is going to cause a huge problem of conflict 
in the State, and I would like to give you a March 19 letter 
from Mary Nichols, the Director of the Resources Agency, who 
expresses concerns that you have not worked with the State in 
determining this, and she says the outcome is unacceptable to 
the State.


               collaborative adaptive management program


    They have proposed an alternative plan offering to bring 
the resources of the State to a collaborative adaptive 
management program in the 2\1/2\ million acres of wildland-
urban interface, where you have got Class 3 forest problems, 
and my hope would be that you would work with the State. The 
State--and I have had a conversation with Secretary Nichols, 
and they understand, and they are prepared to be supportive of 
the need to clean out the forest for a forest fire. She says 
they want to work more aggressively than you want to work to do 
it, so that is the first issue.


                             yosemite toad


    The second issue is, there is something called the Yosemite 
toad. You know, the fairy shrimp are microscopic little shrimp 
that grow in vernal pools, so if a puddle lasts more than 90 
days, a shrimp can pop up and it can stop whatever is going on 
around it, whether it is a new vineyard or anything else. Well, 
the Yosemite toad apparently comes out of pools at higher 
levels where there are ranchers grazing on public land, and it 
is my understanding that a number of these ranchers are 
essentially going to have to be put out of business, and I 
would like to ask you personally to take a look at that and see 
if there is not any way ranchers can be allowed to graze in 
other areas, rather than be put out of business.
    I think there are anywhere from half a dozen to a dozen 
ranchers who are going to be put out of business, and one of 
the things that I really believe is also important as we do 
these things is to protect the heritage of the State, and 
ranching has been a heritage of the California frontier. I 
would like to see it protected wherever I can, and I think 
there is a way of moving around some of these pools without 
putting the ranchers out of business, so I would be hopeful 
that you would be willing to work with them.


                              bark beetle


    The third problem is the bark beetle. I think all of us 
have a big problem with the bark beetle. I know I talked to 
Senator Kyl yesterday about Arizona. There is a big infestation 
there, and we have 150,000 acres of forest that are infested, 
particularly in the Lake Arrowhead area, the Idlewild area of 
California.
    The Governor has declared a state of emergency, and we need 
to find a way to quickly respond to these forest epidemics to 
reduce this spread, so I wrote you a letter on February 18, 
which is a month ago, asking you to address the situation and 
hoping for a response. I have not gotten that response as of 
yet, so I hope today you might address what you are going to do 
about the bark beetle as well.


                       lake tahoe restoration act


    Additionally, 3 years ago Congress passed the Lake Tahoe 
Restoration Act. As you know, the Tahoe National Forest 
surrounds Lake Tahoe, and we authorized $300 million over 10 
years, the Federal Government to contribute a third. There 
really is good news. First, there is a huge consensus in the 
population. Second, Lake Tahoe's clarity has been increasing. 
It is now 73 feet, which is good news, but the disappointment 
is that there is only I think $6 million in this budget to 
continue that plan, and so I hope to be able to add to that a 
little bit.


                          quincy library group


    The final thing is the Quincy Library Group. As you know, I 
was a Senate sponsor of that legislation. I am very supportive 
of it. The project has had a number of delays, had a number of 
bumps. The President proposes $26 million to implement it this 
year the same as last year, and I am very hopeful that it will 
be able to serve as a model in other areas, and so I would like 
any comments you would care to make on that as well.
    I thank you, Mr. Chairman. I thank you, Mr. Bosworth.
    Senator Burns. Thank you, Senator Feinstein.
    Senator Bennett.


              opening statement of senator robert bennett


    Senator Bennett. Thank you, Mr. Chairman. Most everything I 
was going to cover has been covered.
    Senator Burns. Turn your mike on.
    Senator Bennett. Oh, I have to do that, too. All right.


                              prairie dog


    Thank you, Mr. Chairman. Most everything I had intended to 
say has been covered. Senator Campbell, because our States 
adjoin each other, has exactly all the same concerns I have. I 
have to say to Senator Dorgan, he says you get a prairie dog 
and as soon as you get one you get a whole bunch. There are 
parts of my State where they are endangered species, and you 
have got a whole bunch, but nobody can do anything about them.
    Senator Dorgan. But they are not really endangered. They 
are just on the list, right?
    Senator Bennett. Well, they are endangered because the 
attitude in the local community is the three-S solution: shoot, 
shovel, and shut up. Whether that really solves the problem, I 
do not know.


                              bark beetle


    Then Senator Feinstein talks about the bark beetle, the 
combination of Senator Feinstein and Senator Campbell. In our 
State the problem with the bark beetle are all of the lawsuits 
that get filed, and the Forest Service is absolutely handcuffed 
in dealing with it because every time they want to go into the 
Dixie Forest to deal with the bark beetle, which is an enormous 
problem, somebody files a lawsuit and says oh no, no, you 
cannot do this because somehow this will invade the pristine 
nature of the forest, and by the time they get through with the 
lawsuit, then the bark beetle has expanded another few thousand 
acres and the Forest Service says, okay, we are going to do it 
now.


                     evironmental litigation costs


    Well, they file a new lawsuit because it is a new set of 
acreage, and there is great concern that we may, in fact, lose 
the entire Dixie National Forest over this, so I just echo the 
concern about the bark beetle that Senator Feinstein has and 
hope, along with Senator Campbell, that we can find a way to 
deal with the litigation. I would be interested, if you have 
not got the number ready for us here, if you would supply what 
percentage of your budget is taken up in fighting litigation.
    We have asked that question of the BLM director and the 
numbers are between 40 and 50 percent, depending on which area 
you are talking about, and that is a huge, huge drain on the 
land management capabilities. We try to give you the resources 
you need in order to do the job properly, but if all of those 
resources are eaten up in lawsuits--which interestingly enough, 
the BLM always wins.
    It is not a case that the BLM is doing a bad job of 
stewardship. It is the fact that they are constantly being 
diverted with lawsuits, and they have to prove over and over 
and over again that their stewardship is fine in court, and one 
begins to believe that the basic strategy is not to file a 
legitimate lawsuit, but to hamstring the agency through this 
device, and I would appreciate any statistics you could give us 
about what percentage of your budget goes to lawsuits, or 
defending legal activities, and whether or not it is rising.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Bennett.
    Senator Domenici.


             opening statement of senator pete v. domenici


    Senator Domenici. Well, by the time we get to me, I have 
all the same problems. I would say that we did submit to Deputy 
Under Secretary Dave Tenny questions with respect to the bark 
beetle in New Mexico. I would appreciate it if you would look 
at the question and get it answered.
    We have a very old, long-infested piece of BLM forest up in 
Northern New Mexico. It is already beginning to rot, it is old, 
and it is growing. We submitted some questions about treating 
and the like to which we would like to have some answers.
    You know, about now in my life in the Senate, I kind of get 
tired of coming to meetings and complaining that litigation is 
taking all our time. We cannot get anything done. I really wish 
that people like you would tell us what we ought to do so that 
we do not have that situation. I am not interested in having 
another long list of how much time it is taking. We are not 
doing anything to change the situation, and most of you all say 
that we cannot change it. It is the law.
    I think we ought to give it a try, even if it is some very 
significant surgery that we have to do on these statutes. 
Something is amiss when we cannot take care of the problems 
that are so patent that anybody with an ounce of common sense, 
a few dollars, and a little bit of expertise would at least get 
started on some of these things, but we cannot.


                        stewardship contracting


    Let me suggest, if you look at this year's budget, in all 
deference to the President, you will not get much done this 
year, either. By the time we run out of money, when we cannot 
put out the fires and we start borrowing again, the good plans 
you have got going will get stopped. There is not enough money 
for the programs to clean the forest and thin them either, from 
what I can tell. I hope I am wrong, but that is what it looks 
like to me.
    I have one ray of hope, and I hope it does not get bogged 
down in court so it takes forever. I do have a strong sense 
that if you all will apply the stewardship contract approach in 
the right way, and we do not get ourselves in lawsuits where we 
have acted improperly, I believe there is a real chance you can 
have companies that will go in and contract to clean and manage 
and thin out in exchange for what they can take off the forest. 
You might get a lot of work done for not too many dollars that 
can quite properly be managed. I think it can be used for 
cleaning out infestations and anything.
    Right now, however, it is deemed by the environmentalists 
to be a subterfuge for logging. To the extent I read it, I see 
all the ways we could use it that would not be logging, would 
not be any subterfuge to get around the logging laws. I hope 
you can find ways to use stewardship contracting, and I hope 
you all think it is a good approach. I see no other way, based 
on personnel, management capacity, and money to get the forests 
of America managed and back where they are a credit.
    So with that, if you can comment on that later, fine. I 
have some questions about my State that I will ask or submit 
later. Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Domenici. I read your 
statement, Mr. Bosworth, and I just want to point out a couple 
of things that you have highlighted in your statement. I am 
glad we are finally taking a look to see where we want our 
forests to be in 100 years, and the management it will take to 
get there within the next 100 years. That is foresight, and 
hazardous fuels.
    You may summarize your statement if you like. Your entire 
statement will be made a part of the record. As with all of the 
Senators who are here today, your full statement will be made a 
part of the record.
    Chief Bosworth, we welcome you and we look forward to your 
testimony.


                   summary statement of dale bosworth


    Mr. Bosworth. Thank you. Is this on? It is on, good. After 
all these problems we had with that I was not sure.
    Mr. Chairman and members of the committee, I do appreciate 
the opportunity to talk about the President's fiscal year 2004 
budget for the Forest Service. I have Hank Kashdan with me 
today. Hank is the Director of Program and Budget Analysis for 
the Forest Service. He will help me answer some of the 
specifics in terms of dollar questions that you might have.
    It is really good to have you back in the chair, Senator 
Burns. I really appreciate the working relationship that we 
have had in the past so it is good to have you there. It is 
also good to have Senator Dorgan in the ranking minority member 
position. It does make me feel a little bit like I am back home 
in the Northern Region. I worked with both North Dakota and 
Montana. Of course, we had lots of opportunities to work 
together. It does make me feel like I am back home until I look 
out of the window and see that I am still in the city. It is a 
little bit different here.
    I would like to acknowledge completion of the fiscal year 
2003 budget process. It was important to us, the completion of 
that. There are some thanks that you deserve for supporting 
some things like: Fire reimbursement--$636 million I believe is 
what we were reimbursed for the Forest Service--stewardship 
contracting, which was mentioned by Senator Domenici; an 
achievement of balance between fire suppression and fire 
preparedness. Those were some of the things that came up in 
some of the opening remarks.


                        stewardship contracting


    I wanted to take this opportunity to say right now that I 
am strongly supportive, almost to the point of obnoxiousness, 
of stewardship contracting. I mean, it can be our future. It 
can make a huge opportunity for us to be able to treat, 
particularly, some of the fuels kinds of problems that we have. 
There are other kinds of opportunities beyond fuels management. 
We have been experimenting with it now for about 4 or 5 years, 
thanks in good part to the chairman, and we have learned a lot. 
This is an expanded authority which, I think, if we are smart 
in the way that we implement it, we will have people from all 
different viewpoints feeling like this is a good tool to help 
us do the right things on the national forests. So I really 
appreciate having the opportunity to expand the use of that.


                   fire preparedness and suppression


    The other thing, the balance between fire suppression and 
preparedness: In the 2003 budget we have the opportunity to 
move the dollars back and forth between suppression and 
preparedness, depending upon what the fire season looks like. 
That can be very, very helpful to us because we are looking 
at--we are talking about the 2004 fire season in this budget. 
We do not really know what that is going to look like in 2004. 
As we get closer and closer, then, you want to maybe move money 
from one side to the other, depending on what the conditions 
are like. So the way the 2003 budget is set up, that gives us 
that flexibility to be able to make some of those adjustments, 
which I appreciate very much.


                             audit opinion


    I am going to talk mostly about healthy forests, the 
national fire plan, and the Agency priorities. I do want to 
mention our financial accountability first. I appreciate your 
comments, Mr. Chairman, about our accomplishment in finally 
achieving a clean audit opinion. It is very important for us to 
have done that. I am very proud of the folks who worked really 
hard to accomplish that. It is almost unheard of to, really, go 
from no opinion to an unqualified audit opinion in just 1 year. 
We feel very good about that.
    But I also have to say that that is the very, very, very 
minimum that taxpayers ought to expect of us. At the least, we 
ought to be able to do that. We have a long ways to go yet in 
our organization to be able to sustain that clean audit 
opinion. We still have other changes we have to make in terms 
of how we are organized, in terms of how we manage our 
financial dollars. I believe that, while it is our job in the 
Forest Service to be good stewards of the public lands, it is 
also our job to be good stewards of the public funds. We intend 
to do that.
    A little bit, just sort of an overview, I guess, of the 
fiscal year 2004 President's program: For me, the reality is 
that it is a flat budget, the very, very best that we can 
expect, given the international and domestic issues that we are 
faced with. Having a flat budget is the most that we can 
expect. That is what we have.


                       healthy forests initiative


    We have legislative and regulatory initiatives, though, 
that I believe will help stretch those dollars a lot further to 
get more money on the ground. That would accomplish some of 
those things like the President's Healthy Forests Initiative. 
To me, the key solution here is to be able to do more with the 
dollars that we have. That is what some of these initiatives 
tie into.
    We have the Healthy Forests Initiative--many of you are 
very, very familiar--and everybody from the West is very, very 
familiar--with some of the fires that we have had--the problems 
that the lack of good forest health has brought to us. Many of 
these large fires happened because of the lack of forest 
health.
    Senator Feinstein mentioned the San Bernadino National 
Forest. One of the problems is that we are in a drought 
situation. There are way, way too many trees there for what the 
conditions, the natural conditions, would have been because we 
have been suppressing fires for years and years and years.
    So now we are faced with the problem of trying to clean up 
a place that is messed up because of insects and diseases--
particularly insects, bark beetles in this case, with a whole 
lot of dead trees--rather than having treated it 10 years ago, 
or 15 years ago--to have a healthy forest condition so that we 
do not have to deal with the clean-up and then potential 
devastating fire problems.
    I think that is a good example. There are many other 
examples that we have seen around the country that are facing 
us that, if we can be proactive and get the work done on the 
ground, we maybe hopefully can avoid some of those 
circumstances.
    I think there are lots of opportunities--the same thing in 
Idaho again, or in Montana again--with stewardship 
contracting--to try to achieve some of the same things there, 
and that can apply to places--we have the same opportunities in 
New Mexico, Utah, and Colorado. Those are some great 
opportunities that I am really anxious to continue the work 
with this committee on.
    We have had good support from this subcommittee in the 
whole notion of forest health and long-term fuels reduction. 
That is going to be the challenge for us over the next 10 to 15 
years. I hope we can continue with that.


                                research


    There are some other increases in the budget that I think 
are important that I want to point out. There is an increase in 
research that is targeted at sudden oak death and other 
invasive species--an additional increase for fire-related 
research, and that is going to be really important. We need to 
do a good job of research. We need to be building our research 
capacity back. When we get some of these events, like sudden 
oak death, we have to have the capability to try to learn as 
much about that as quickly as we can or we can end up with some 
really difficult situations.


                            range management


    We have an increase in range management to help improve the 
health of rangelands--an increase for forest legacy, I think 
that you had mentioned, better enable acquisition of 
conservation easements on some important tracts.


                         legislative proposals


    There is an array of legislative proposals that will do 
things like: update the appeals process; streamline the 
execution of the highest-priority hazardous fuels reduction 
areas; expand partnership authorities; improve the ability of 
partners to cooperate with the Agency--because right now it is 
very difficult for people to be partners with us and so there 
is a legislative initiative that would help that--and also to 
make existing watershed enhancement authority permanent, known 
as the Wyden authority.
    It is also important to note that there is a proposal to 
make the Recreation Fee Demonstration Program permanent. I do 
believe that a large majority of recreation users support that 
program.
    A lot of comments were made in the opening remarks that I 
would be happy to respond to. I could respond, I think, more to 
direct questions regarding these things. The one I would like 
to just--several people talked about ``analysis paralysis'' or 
``process gridlock.''


                          process predicament


    We submitted--developed a report in the Forest Service 
about a year ago in which we referred to a ``process 
predicament.'' The purpose of that report was to identify 
problems. It did not offer solutions but identified problems. 
We used that as a means to try to get some kind of 
understanding and agreement as to whether there was really a 
problem. We believed there was.
    My belief is that it was useful for that. People recognized 
that we have problems and are willing to work with us. 
Consequently, we have submitted a number of things. We proposed 
some changes in our planning regulations. That, hopefully, 
would reduce the time to do a forest plan from something like--
8 to 10 years is what it has been taking us--down to maybe 2 
years. I mean, they are out for public comment right now. That 
is what I would like to do: To be able to get them and shorten 
that period of time.


                         categorical exclusions


    We are proposing some ``categorical exclusions'' which 
would mean that we would exclude certain kinds of projects from 
documentation in an environmental impact statement. We would 
still do analysis, still do public involvement. We just would 
not document it in an environmental impact statement for those 
projects that we have done over and over and over and over 
again. We know, after having done it so many times, that we are 
not going to have adverse effects on the environment.
    So we are proposing a number of categorical exclusions that 
we believe will help speed up the process for things like some 
small-debris removal, for fuels treatment, and for restoration 
and rehabilitation. Those are out for public comment right now. 
They are not all favorable, the comments we get on those but, 
again, I believe that if we get the opportunity to implement 
some of those things, we can show people what we can do on the 
ground. They will like what they see. We are trying to move 
forward and deal with that issue.

                           prepared statement

    So I am going to wrap it up now. I will answer questions. I 
am happy to be in this job right now. It is an exciting time. 
It is an honor to be here. I look forward to working with you. 
I will be happy to answer your questions.
    [The statement follows:]
                 Prepared Statement of Dale N. Bosworth
    Mr. Chairman, Senator Dorgan, and members of the Subcommittee, 
thank you for the opportunity to discuss the President's fiscal year 
2004 Budget for the Forest Service. I am accompanied by Hank Kashdan, 
Director of Program and Budget Analysis for the Forest Service. It is a 
great privilege to be here today.
    Before discussing my testimony in detail, let me first thank you 
Mr. Chairman for your support of the Forest Service and your focus on 
management of the nation's natural resources. The Committee's support 
of expanded authority for stewardship contracting as contained in the 
fiscal year 2003 Appropriation's Act, exemplifies this focus. And 
Senator Dorgan, let me start by congratulating you on assuming the 
ranking member position on the Subcommittee. I look forward to working 
with you in this important role.
                                overview
    Teddy Roosevelt's rich legacy includes the Forest Service, and he 
once observed that people should make few promises and then keep them. 
Our agency, which will celebrate its 99th anniversary during the 2004 
budget year, has made more than a few promises. I am often asked about 
my vision for the Forest Service. The Forest Service must be viewed as 
the world's leader in natural resource management by living up to 
commitments, efficiently using and accounting for the taxpayer funds 
that are entrusted to us, and treating people with respect. My vision 
as we approach the centennial is to heed TR's advice. We are an agency 
that keeps its promises.
    The fiscal year 2004 President's budget request for the Forest 
Service is $4.8 billion, $119 million greater than the fiscal year 2003 
Enacted Budget. The fiscal year 2004 Budget provides funding to reduce 
the risk of wild land fire to communities and the environment by 
implementing the President's Healthy Forests Initiative. In addition, 
it provides funds to enhance the ability of the Forest Service to meet 
multiple demands. The major departure from fiscal year 2003 is an 
increase of $187 million for wild land fire suppression and additional 
increases in funds for forest and rangeland research, forest 
stewardship, forest legacy, range management, and hazardous fuels 
reduction.
    This past August the President announced the Healthy Forests 
Initiative in order to help reduce the risks of catastrophic wildfires 
to communities and the environment. The fiscal year 2004 budget 
proposal contains a combination of legislative and funding priorities 
the President feels are necessary to address this need, as signaled in 
his State of the Union message. The Healthy Forests Initiative builds 
on the fundamentals of multiple use management principles that have 
guided the Forest Service since its formation. These principles embody 
a balance of conservation and balanced approach to the use of natural 
resources that are valid today in working with local communities, 
States, Tribes, and other Federal agencies.
                             accountability
    In my testimony today I want to discuss in detail how the 
President's fiscal year 2004 budget and accompanying legislative 
initiatives will improve the health of our forests and rangelands, but 
first let me focus on the agency's effort to improve its financial 
accountability.
    When I began my career, the Forest Service was viewed as a model 
federal agency, accomplishing our mission for the American people. I am 
pleased to share with you today a stride that takes us closer to the 
reputation of a generation ago. Through the extraordinary efforts of 
our employees across the nation, we and our USDA counterparts have 
achieved an unqualified audit opinion for 2002. This is an important 
step in a continuing effort to fulfill promises previous Chiefs and I 
have made to get the Forest Service financial house in order. To 
progress from no opinion to a clean opinion in just one year is 
unprecedented. This unqualified audit opinion sets the basis for our 
next steps, which include additional financial reforms to efficiently 
consolidate financial management personnel; improve the effectiveness 
of the financial management system as part of the funds control and 
budget execution process; and improve the quality of account 
reconciliation. It will take as much work to keep that clean financial 
opinion as it did to earn it. But, this important accomplishment of a 
clean audit opinion demonstrates the progress we are making in keeping 
our word.
                          process predicament
    When I met with you a year ago, gridlock and analysis paralysis 
directly affected our ability to deliver on many promises: to protect 
communities from catastrophic wildfire, to provide a sustainable flow 
of forest and grassland products, and to sustain the landscapes used 
and enjoyed by the American people. These problems still exist, but the 
Forest Service has taken the initiative to deal with this process 
predicament within its authority by proposing regulations and policies. 
I believe we are on the road to success. We proposed a revised planning 
rule to provide a more readily understood planning process--one that 
the agency can implement within anticipated budgets. We proposed new 
processes to simplify documentation under NEPA for management 
activities that do not significantly affect the environment--small, 
routine projects that are supported by local communities, such as 
salvaging dead and dying trees or removing insect infested or diseased 
trees. We propose to work with you and the American people to keep our 
promise that these measures are about sustainable land stewardship.
                     president's management agenda
    The Forest Service has developed and is implementing a 
comprehensive strategy to achieve the objectives of the President's 
Management Agenda. Today I'll highlight a few of the significant 
efforts we're making to improve Forest Service management and 
performance. In the competitive sourcing arena, we will conduct public/
private competitions on 3,000 full-time equivalent positions during 
fiscal year 2004, identifying the most efficient, effective way to 
accomplish work for the American people, as identified in the Agency's 
Efficiency Plan which has been submitted to the Administration. Our e-
government energies will move beyond web information delivery into four 
important areas: incident planning and management, recreation services 
and information, electronic planning record, and the federal and non-
federal assistance process. We are instituting critical oversight 
controls to keep wildfire suppression costs as low as possible while 
protecting communities and resources and improve our methods of 
reporting wild land fire suppression expenses. Several streamlining 
efforts are underway to reduce indirect costs and better examine the 
role and structure of various Forest Service organizational levels.
    An element of the President's Management Agenda concerning budget 
and performance initiative, the Program Assessment Rating Tool (PART) 
analysis provides a standardized set of performance management criteria 
that provides a consistent evaluation process to identify areas of 
performance and budget integration they should improve. In fiscal year 
2004, the Wildland Fire Management and Capital Improvement and 
Maintenance programs of the Forest Service were selected to participate 
in the first round of assessments using the PART. The PART analyses for 
these programs indicated that funds need to be better targeted within 
the Wildland Fire Management program while the annual performance 
measures of Capital Improvement and Maintenance program inadequately 
linked to ongoing management initiatives aimed at addressing the 
maintenance backlog.
                          rangeland management
    The President's budget provides a $2.6 million increase that 
supports a significant Forest Service promise--to make progress on 
completing environmental analysis on national forest rangelands. The 
funding increase will enhance our capability to manage livestock and 
support communities where rangelands are an integral part of the 
economy and way of life.
                        forest service research
    Productive forests and rangelands provide wood and forage, clean 
water, wildlife habitat, recreation, and many other values. Key to 
sustained and enhanced productivity is developing and deploying 
integrated resource management systems based on the best science 
available. A $2.1 million increase in forest and rangeland research is 
a valuable addition to our program. Some of the increase will support 
research and development tools essential to prevent, detect, control, 
and monitor invasive species and restore impacted ecosystems. Other 
emphasis includes a pine bark beetle program that looks at new 
management strategies, better utilization of bark beetle trees, and 
developing additional treatment options for managers and landowners. 
Programs to identify new biological control agents and treatment 
methodology and to develop integrated pest management technology for 
land managers will also be accelerated. The President's Budget 
recognizes the need for research to support the full range of 
challenges faced by land and resource managers because challenges don't 
stop at National Forest System boundaries. Addressing the issues 
associated with America's forests and grasslands--including hazardous 
fuels, protection of communities from catastrophic wildfire, invasive 
species, and pathogens--doesn't depend upon who owns the ground. 
Keeping this promise goes beyond the basic and applied science 
functions of research. We also need to bridge the gap between research 
findings and results on the ground. The request reflects the importance 
of technology transfer, internally in the Forest Service and externally 
through our university and State and Private Forestry program partners.
                       state and private forestry
    Through close cooperation with State Foresters and other partners, 
our State and Private Forestry Program provides assistance to 
landowners and resource managers to help sustain the Nation's forests 
and protect communities and the environment from wildland fire. The 
President's budget contains an increase of over $31 million for these 
programs. While most of the forest health management, cooperative fire 
protection, and cooperative forestry programs continue at fiscal year 
2003 levels, forest stewardship and the forest legacy program reflect 
an increase. A $34 million increase for forest stewardship supports the 
objectives of the National Fire Plan, the Healthy Forest Initiative, 
and the Forestry Title of the 2002 Farm Bill. The increase will 
strengthen our partnerships through a competitive cost-share program, 
leveraging the effectiveness of federal funds to reduce hazardous 
fuels, improve invasive species management, and enhance forest 
production from state and private lands. This increase will support 
increased private landowners' investment in the management of small 
diameter and underutilized forest products. In the forest legacy 
program, the President's budget proposes a $22 million increase to 
conserve environmentally important private forests through partnerships 
with States and willing landowners. The budget will support 
partnerships with up to ten additional States that have not previously 
participated in the program. We expect total conservation of more than 
200,000 acres, benefiting wildlife habitat, water quality, and 
recreation.
    the next 100 years for america's national forests and grasslands
    Some people and organizations still argue that timber harvest 
levels represent the greatest threat to the National Forests. However 
loudly voiced or strongly held these views may be, they are not 
accurate for the reality of management of the National Forests in the 
next 100 years. This year's budget request supports a program to offer 
two billion board feet including salvage sales.
    The request addresses two key long-term challenges to America's 
National Forests and Grasslands: the build up of hazardous fuels and 
the spread of invasive species that seriously impair ecosystems. In 
August of last year, the President announced the Healthy Forests 
Initiative (HFI). Its objectives include streamlining the decision-
making process and continuing our long-term commitment of working with 
communities to achieve a meaningful level of public involvement.
    We are committed to our continued partnership with those that use 
and enjoy America's National Forests as well as those that value them 
as part of our nation, no matter where they live. Although we have made 
progress, we must do more. Last year, the Secretaries of Agriculture 
and the Interior proposed new legislation to authorize permanent 
stewardship contracting authority, expedited review, hazardous fuels 
reduction projects, and address a burdensome administrative appeal 
process. President Bush reaffirmed his commitment to Healthy Forests 
during the State of the Union Address. We are committed to working with 
you as you consider the proposals of the Secretaries.
Hazardous Fuels
    The presence of large amounts of hazardous fuels poses a tremendous 
threat to people and to public and private natural resources. The 
Budget increases emphasis on protecting communities and property from 
the effects of these combustible fuels--catastrophic wildfire. The 
budget supports the 10-year Comprehensive Strategy and Implementation 
Plan, developed in close collaboration with governors, communities, and 
the Department of the Interior. Through performance goals contained in 
the implementation plan, we will implement hazardous fuels reduction 
projects, improve fire suppression planning, expand forest product 
utilization, protect lands from fire related spreads of invasive 
species, and undertake key fire research.
    The budget contains an increase of nearly $187 million for fire 
suppression. Wild land fire suppression costs are increasing and are 
having significant impact upon a wide number of Forest Service 
programs. The cost increases are due a number of reasons, including 
costs associated with national mobilization, wild land fire suppression 
in areas of high hazardous fuel loads, large aircraft and helicopter 
operations, and the increasing complexity of suppression in the wild 
land-urban interface. To address these increasing costs, the Budget 
proposes that the Forest Service and the Department of Interior (DOI): 
review the cost-effectiveness of large fire aviation resources; 
establish a review team to evaluate and develop cost containment 
strategies; and revise procedures to improve reporting of fire 
suppression spending. Together with other actions, this should enable 
the Forest Service to significantly improve our ability to fight 
wildfires without the major impacts to other programs we experienced 
during last year's fire fund transfers. Last year we kept our promise 
by aggressively fighting wildfire--long after funds appropriated 
specifically for fire suppression were gone--and catching more than 99 
percent of fires the way they all start, small. The request includes a 
renewed emphasis on up-to-date fire management plans and wild land fire 
use fires.
    Accomplishing performance objectives under the National Fire Plan 
is also consistent with the President's Management Agenda. Reducing 
hazardous fuels, protecting against fire-related invasive species, and 
targeting adequate resources to suppress wildfire promotes improved 
health of Federal, State, Tribal, and local lands as well as enhancing 
the economies of natural resource based communities. I again urge all 
of us--cooperators and skeptics--to keep a focus on what we leave on 
the land, not what we take from it. Effective, integrated hazardous 
fuels reduction can leave us with clean, healthy water, improved 
wildlife habitat, and more satisfying recreation experiences.
Invasives
    Invasive species, especially weeds, pose a tremendous threat to 
forests and grasslands. Whether kudzu or leafy spurge or knapweed or 
oriental bittersweet vine, these unwanted invasives take hold and out 
compete native species, changing the look and structure of entire 
ecosystems. Our response to these threats needs to embrace an 
integrated approach. In the coming year we will improve integration of 
efforts among the National Forest System, Research, and State and 
Private Forestry, and other USDA agencies.
                         legislative proposals
    The fiscal year 2004 Budget contains several legislative proposals 
that significantly advance common sense forest health efforts that 
prevent the damage caused by catastrophic wildfires and move past 
``process gridlock'' to improve agency land management efficiency. Four 
proposals, in particular, promote the President's Healthy Forests 
Initiative by reducing hazardous fuels; permanently authorizing 
stewardship end results contracting; repealing the Appeals Reform Act; 
and revising standards of judicial review in decisions that relate to 
activities necessary to restore fire-adapted forest and rangeland 
ecosystems.
Hazardous Fuels
    As mentioned earlier, the Secretaries of Agriculture and the 
Interior proposed legislation that authorizes emergency fuels reduction 
projects in priority areas of federal forests outside wilderness areas. 
This will allow timely treatment of forests at risk of catastrophic 
fire and those that pose the greatest risk to people, communities, and 
the environment. Our top priorities will include the wild land-urban 
interface, municipal watersheds, areas affected by disease, insect 
activity, wind throw, and areas subject to catastrophic reburn. We 
would select projects through collaborative processes, consistent with 
the 10-Year Comprehensive Strategy and Implementation Plan.
    Fundamental to better implementation of core components of the 
National Fire Plan's 10-Year Comprehensive Strategy is the outstanding 
cooperation that exists between the Forest Service, Department of the 
Interior, State governments, counties, and communities in the 
collaborative targeting of hazardous fuels projects to assure the 
highest priority areas with the greatest concentration of fuels are 
treated.
Stewardship End Result Contracting
    Section 323 of the Omnibus Appropriations Act for fiscal year 2003, 
authorizes the Forest Service and the Bureau of Land Management to 
undertake, for a period of 10 years ``stewardship end results 
contracting projects.'' The Administration had requested this extended 
authority last year in the President's Healthy Forest Initiative. I 
appreciate the action of the Congress in responding to the President's 
request. We expect this tool, which had been available only to the 
Forest Service on a limited pilot basis, to be used to implement 
projects that have been developed in collaboration with local 
communities and which will primarily improve forest or rangeland 
health, restore and rehabilitate fish and wildlife habitat, and reduce 
hazardous fuel. Projects will have appropriate NEPA analysis and comply 
with agency wilderness and roadless policies, the relevant forest plans 
and appeals regulations.
Repeal the Appeals Reform Act
    The Forest Service is subject to procedural requirements that are 
not required of any other Federal agency. To address this issue, the 
Secretaries of Agriculture and the Interior will propose legislation to 
repeal Section 322 of the Department of the Interior and Related 
Agencies Appropriations Act of 1993 (commonly known as the ``Appeals 
Reform Act''), that imposed these requirements that I believe limit our 
ability to work collaboratively with the public.
Standards of Judicial Review
    To ensure that courts consider the public interest in avoiding 
irreparable harm to ecosystems and that the public interest in avoiding 
the short-term effects of such action is outweighed by the public 
interest in avoiding long-term harm to such ecosystems, the Secretaries 
of Agriculture and the Interior will propose legislation to establish 
revised rules for courts in decisions that relate to activities 
necessary to restore fire-adapted forest and rangeland ecosystems.
    The President's Budget also includes legislative proposals to:
  --Expand or clarify existing partnership authorities,
  --Permanently authorize the Recreation Fee Demonstration program,
  --Allow for the transfer of Forest Legacy titles to willing State 
        governments,
  --Promote watershed restoration and enhancement agreements,
  --Authorize a Facilities Acquisition and Enhancement Fund,
  --Restore eligibility for State and Private Forestry Programs of the 
        three Pacific island entities in ``Compacts of Free 
        Association,'' and
  --Eliminate requirements of the Forest and Rangeland Renewable 
        Resources Planning Act of 1974 that duplicate the Government 
        Performance and Results Act of 1993.
                               conclusion
    We are fulfilling key promises in re-establishing sound management 
throughout the Forest Service. I want the Forest Service to be an 
organization people trust and once again point to as an example of good 
government. Earning this trust means becoming good stewards of not only 
public land and natural resources, but of public dollars, of public 
trust. We know the work is not complete--there are still many 
opportunities like large fire cost management, integrating information 
systems, and making organizational changes in administrative support 
operations--but we're making good progress.
    Traditional functional and program boundaries do not serve us 
well--they get in the way of our ability to keep our word. I am 
committed to putting more effort into integrating our programs and 
becoming better partners with people interested in leveraging our work. 
The President's Healthy Forest Initiative exemplifies an integrated 
approach to problems that affect not just national forests or national 
grasslands, but America's forests and America's rangelands. It is an 
opportunity for our private land neighbors, for research, for partner 
agencies, for everyone concerned about America's forests and 
grasslands.
    Let me reiterate the deep honor I feel in being Chief of the Forest 
Service in this challenging time and the equally deep sense of 
obligation I feel to keep our promises to the American people. I enlist 
your continued support and look forward to working with you toward that 
end.
    I will be happy to answer any questions.

    Senator Burns. Thank you very much, Chief. I have a couple 
of questions, and then I want to move to my colleagues, because 
everyone is on a tight schedule. I have just a couple of 
questions.

                                RESEARCH

    In your R&D, I noticed in your monies to do research--the 
continual research of what we can do--how do we better manage 
our forests? I was going to ask you: Do you ever commission or 
grant out to land grant colleges for work to be done with 
regard to soil or water management, or watershed, or any of 
those things? Do any of the colleges across the country--I 
mean--New Mexico State University, I know, has a forestry 
school that is very good. Do you ever outsource any of that 
research to these colleges and land grant schools?
    Mr. Bosworth. We do a lot of work in terms of research with 
colleges and universities. Yes, we do outsource research to 
colleges and universities. It depends upon the circumstances. 
In some cases, they are doing it in combination with our 
research organization. In other cases, it is just strictly 
outsourced to a college or university.

                        STEWARDSHIP CONTRACTING

    Senator Burns. You might bring this up. I know some folks 
believe that stewardship contracting is somewhat controversial. 
I think you emphasized in your statement that stewardship 
contracting is going to be sort of the centerpiece of getting 
some things done on our forests that we need to be done. What 
are the other main objectives that could be accomplished 
through those stewardship contracts? How many contracts do you 
plan to let this year?
    Mr. Bosworth. Well, the first part, the other kinds of 
objectives: The whole notion behind stewardship contracting is, 
first, to collaborate with the public up front, to figure out 
what condition you want the land to be left in. You work 
together to figure out what that may be. Then, under one 
request for proposal, you end up with a contract that will 
accomplish all the things that you want to accomplish on that 
piece of land. In other words, you are bundling all the 
activities together.
    So it may be things like reducing fuels. You may be able to 
do some work like habitat improvement for a threatened or 
endangered species, or for other species, some restoration work 
for a watershed, rehabilitation or restoration work. I think 
there are great opportunities to do some of the noxious weed 
kind of work that needs to be done as part of that.
    So you do all those jobs together. Then there is some 
value, there may be some value from some of the materials, some 
of the trees that are there. The value that is there would help 
offset the cost of doing that work. The contractor then would 
be able to utilize that material. So it makes a lot of sense 
because you work together and reduce the amount of dollars.
    Senator Domenici. Would the Senator yield?
    Senator Burns. Sure.
    Senator Domenici. Have you not done that, experimented four 
or five times in pilot projects?
    Mr. Bosworth. We have--let us see--we had 28 projects each 
year authorized for the last 4 years. It is a total--I do not 
have a calculator. I cannot multiply that out in my mind right 
now. Anyway, that is how many we are authorized to do.
    We have not completed a lot of those but we gained a lot of 
experience in working with the public in setting those up. We 
have done multi-party monitoring where we had people from the 
public to help monitor those experiments or those pilot 
projects. They were working very well.
    Again, we did not have final results in a lot of cases. We 
have the final results in some and a certain amount of progress 
in lots of cases. To me, the thing that was important--to 
monitor and see how it was working--is public acceptance: 
Whether or not we were actually getting people to look for 
common ground and find common ground. That was the important 
part.
    In terms of the number of projects or number of contracts 
that we have this year, it is difficult for me to answer that 
specifically. You know, we have delegated the authority, or 
will delegate the authority, to the regional foresters to use 
that tool wherever they can use it. There will be some 
sideboards. There are going to be more projects. We need to 
train people. There is some work that we are going to have to 
do now. We are expanding the use of that. I am anxious to get 
moving. I am anxious to have more opportunity to show people 
how it will work. I am certain it is going to be successful.
    Senator Burns. Well, thank you very much. I am going to 
move on. I was going to ask you about your--I see you brought 
all your boxes of appeals to make some points. I will let 
somebody else handle that end of it.
    Senator Feinstein.
    Senator Feinstein. Thanks very much, Mr. Chairman. I very 
much appreciate what you are trying to do to correct the long-
standing, I think, failed policy of fire suppression. I want 
you to at least know that this Senator wants to work with you 
in that regard. I am very concerned about the Class 3 areas in 
the Sierra Nevada, which are about a third of the Class 3 areas 
in those strategic areas of Class 3.

                     SAN BERNADINO NATIONAL FOREST

    The San Bernadino National Forest supervisor, Gene 
Zimmerman, told my staff that he believes solving the bark 
beetle problem will require at least $300 million--at least--
just for that forest, including $5 to $6 million which is 
needed immediately simply to ensure that: Evacuation routes are 
maintained; critical fire breaks are established; and the 
necessary manpower and equipment are on hand.
    The Omnibus Appropriations bill provided about $3.3 million 
for this problem but it is not enough. How do you intend to 
address this issue financially?
    Mr. Bosworth. The total amount that Forest Supervisor 
Zimmerman is talking about--I have not scrubbed those numbers 
myself or had my staff take a hard look at those numbers--but 
there is no question that the problem there is going to be 
extensive to deal with.
    The regional forester, Jack Blackwell, has already 
committed to shifting some dollars within the region to get 
down to, shift them down to the San Bernadino NF because that 
is an urgent problem. There is a will to deal with it. The 
public down there is interested in dealing with it. So he is 
going to be shifting some of those dollars.
    They have already implemented some projects--I can get you 
some exact acreages, if you would like, and some more specific 
kinds of plans for what we can do--but we are not going to be 
able to put $300 million into that in the short term. That is 
just too much money.
    We also need to be very strategic in where we locate the 
kinds of treatments that we are going to do so that we can get 
the most out of every treatment to protect the communities, to 
protect the homes, and to protect the forest as well.
    Senator Feinstein. Thank you very much. I appreciate that. 
I recognize that $300 million is probably out of the can. As 
has been said by others here, it is a really serious problem. 
Anything you can do would be appreciated.

                               LAKE TAHOE

    I wanted to ask you about the Lake Tahoe situation. As you 
know, both California and Nevada are putting up their share of 
money. They have had enormous success at raising money in the 
private sector for that part of it. I am disappointed that so 
little is in the budget for the Lake this year. I have another 
question, too.
    There was $21 million transferred from the 2003 budget for 
Lake Tahoe to meet emergency wildfire suppression needs in that 
area. The regional forester, the one and only Jack Blackwell, 
has committed to use reimbursement monies in the Omnibus bill 
to restore those funds to Lake Tahoe. Chief, will you commit as 
well to use reimbursement monies in the Omnibus bill to 
reinstate the funds?
    Mr. Bosworth. Actually, the dollars that were--the way that 
the payback--or the dollars to restore--the $636 million that I 
talked about earlier--some of that would have been 
automatically restored, about a third of it would not, of 
National Forest System dollars. About a third of it would not 
have been restored for Lake Tahoe. Regional Forester Blackwell 
has agreed to move the dollars to make sure that Lake Tahoe 
and, I believe, the Quincy Library Group as well--100 percent 
of those dollars will be restored. He is doing that within his 
own region. I appreciate the fact that he is taking that on and 
doing that within the flexibility that he has. Those dollars 
will be there. They will all be back in Lake Tahoe.
    Senator Feinstein. Thank you very much. I appreciate that.

                             LAKE ARROWHEAD

    Can you quickly tell us what you are going to do in the 
Lake Arrowhead area--now, this is for residence protection--in 
those areas that are in the greatest danger of catastrophic 
fire due to the tree mortality surrounding their property?
    Mr. Bosworth. Well, I am going to need some time to be 
really specific. I can tell you that our folks are working very 
closely right now with the county, with local law enforcement, 
as well as fire departments. Together we can take what we have 
to offer in the Forest Service, along with what the State, 
counties, and local jurisdictions have to offer, to work 
together to be able to provide that safety net that people 
need, but I cannot be specific about----
    Senator Feinstein. Maybe somebody could brief me on what 
you are doing in those areas, the bark beetle infestation 
areas----
    Mr. Bosworth. We would be happy to do that.
    Senator Feinstein [continuing]. With some specificity. I 
would appreciate that. Thank you, Mr. Chairman.
    Senator Burns. Thank you. Senator Campbell.
    Senator Campbell. Thank you, Mr. Chairman. Chief, I 
recognize, as I am sure you do--we all do--we have got a huge 
deficit this year. Demands are up. States all have deficits. I 
have to tell you, I think when I look at your budget we are 
being penny-wise and dollar-foolish.

                          WESTERN FOREST FIRES

    Those fires are so intense out there. I do not know if you 
have visited some this last year--like the one in Arizona in 
the national forest down there, and on the Indian reservation, 
or the Hayman fire in Colorado, or the Missionary Ridge fire--
but they are not like fires years ago. These things are--I 
mean--they are hotter, move faster, are more unpredictable--
they are worse.
    I visited the Missionary Ridge fire near Durango while the 
firefighters were there. I talked to a couple of firefighters. 
They told me that the flames were moving at about 50 miles an 
hour sometimes. They actually saw birds being burned out of the 
sky. They could not even out-fly the flames. That is a hot 
fire.
    I think that, you know, we are going to pay the bill no 
matter what. Durango is a good example. After that particular 
fire, there was a lot of sediment washing down from the burn 
area. They came back and asked me to get them one-half million 
dollars in the appropriations process to upgrade their water 
filtration system plant to be able to handle that increased 
sediment, which I did. They got the money. I would have rather 
put that money into your budget, very frankly.
    It seems to me that when we do not plan ahead, do not have 
adequate precautions, we are going to pay the bill. We are 
going to pay the bill anyway at a later date. This all comes 
out of the same taxpayer's pocket one way or the other. I just 
think that if we had more money through the administration's 
request, it would not cost us on the other end. It is going to 
cost, as I understand it, about $3 million to stabilize some of 
the areas around Denver where sediment is already washing 
down--and will even more after this last huge snow begins to 
melt--and washes into the filtration system. I just wanted to 
pass that on and maybe ask you a couple of questions.

                  RECREATION FEE DEMONSTRATION PROGRAM

    By the way, all the calls we are getting in our offices out 
West are absolutely against that fee demo, making that Fee 
Demonstration Program permanent. I think most people think, as 
I do out there, that if you are using the land--like you are 
taking firewood or cutting Christmas trees or something of that 
nature--when you take something from it--or filming for profit 
or something--then it is fair to ask them to pay some kind of a 
fee. But most of the people I talk to out there are absolutely 
opposed to paying just to go out and look at what they think 
they own as an American citizen in a forest. I thought I would 
pass that on to you.

                          WESTERN WATER RIGHTS

    Let me ask you just two questions. One deals with water. 
Out West, we are very, very protective of our water, as you 
might know. It goes back to years and years ago. Mark Twain 
once said that whiskey was for drinking, water was for 
fighting. They still think that way out there, as you know. We 
have this constant struggle between those people who believe 
there is an implied Federal reserved water right and those 
people who think that all water within a State ought to be 
adjudicated through the State water courts.
    I would like to know your view on that, because in some 
cases--and I know it depends a lot on which administration is 
in power, too--but in some cases the Forest Service has tried 
to impose bypass flows in our national forest and circumvent 
working with State instream flow programs. I am sure you are 
aware of that. I would like you to give me your view on where 
you think that is going, particularly as we possibly face 
another drought in the West.
    Mr. Bosworth. Well, the first thing is that States 
adjudicate water rights. My belief is that people who have 
water rights, that is their water. The State is the 
organization that determines who has those rights.
    I also think that, in the end, the way to work with this is 
in a collaborative way to find common ground. The land is not 
worth much if you do not have water on it whether it is private 
land or whether it is public land. So it is important, in my 
view, that: We work together with those folks that hold the 
water rights; do what we can to try to make sure that we are 
still able to keep the functioning of the streams intact and 
also meet their needs; but do it in a working-together way 
rather than in a going-to-court or a regulatory way.
    I may be a little bit naive, but I believe that in most 
cases if you really sit down and try to work toward each 
other's interests, you can find solutions to those problems.
    Senator Campbell. Well, I would like to think so, too. But, 
as I said, sometimes it depends on the administration. It seems 
to me the past administration was hell-bent on usurping State 
water rights in all of our rivers that come through our Western 
States. We had those constant fights. I wanted you to be aware 
of that.

                       FIRE IMPACTS ON WATERSHEDS

    Let me just ask maybe one more, and that is: When I think 
in terms of how watersheds are affected by these murderous 
fires we have out now, it would seem to me the Forest Service 
would get ahead of the curve and try to work with 
municipalities in offering some suggestions or recommendations 
or something before the fires start on what precautions they 
ought to be taking. Do you have anything like that in place in 
the Forest Service? I see Hank is nodding his head so you must 
have something.

                                FIREWISE

    Mr. Bosworth. We have a program called FIREWISE where we 
work with, usually through the State Foresters, the local 
community in making sure that people have the information to 
know what things they can do on their own property and around 
their own homes.

                        WATER FILTRATION PLANTS

    Senator Campbell. Yes, I knew of those because I have sat 
in some of those meetings. I meant particularly dealing with 
water filtration plants and precautions that can be taken by 
towns to protect their water after a fire.
    Mr. Bosworth. I guess I am not aware specifically in terms 
of water filtration. We would certainly have some expertise 
that could work with that. We also have some programs, like our 
Forest Stewardship program under State and Private Forestry, 
that helps in terms of how you manage on private land, how the 
vegetation is managed to help private landowners do things that 
will keep the land in better condition in the event that you 
have a fire. You would not need to deal with the problem in 
terms of filtration through plants. I would be very happy to 
explore some of our State and Private Forestry programs to see 
whether there are some things that can get at that more 
directly.
    Senator Campbell. Well, I might compliment you on one 
thing. I know in our State--and I think it is probably pretty 
much like this in other Western States, too--that Federal and 
State Foresters really work well together. I have done a number 
of town meetings--the things that we all do--and invited them 
to come answer some questions about it. They really have a very 
close working relationship and good communication between 
States and the Federal level.
    They are all strapped with the same problem--that is, not 
having enough resources--but they do have tremendous lines of 
communication.
    Thank you, Mr. Chairman.
    Senator Burns. Senator Bennett.
    Senator Bennett. Thank you, Mr. Chairman.

                                DROUGHT

    Again, most of the questions that I am concerned about have 
been asked. You are aware of the fact that we are in the fifth 
year of a drought. It seems hard to realize here in 
Washington--where we have just dug out from under huge amounts 
of snow and now we have rain coming down--but in Utah the 
conditions are very bad. I would hope you would do everything 
you can. I know you are doing everything you can.
    I simply want to underscore that. We are reaching a point 
where we need, not just good stewardship, but we need heroic 
kinds of statements to deal with the challenges of drought. 
Aside from doing a rain dance and making it rain--we will 
assign that to Senator Campbell--I am not quite sure what you 
can do.
    Senator Burns. He said it is a matter of timing.
    Senator Bennett. I see, okay.
    I want to compliment you on the people you have on the 
ground in Utah. We have a good relationship in our office with 
Forest Service personnel in Utah. We very much appreciate their 
cooperation. Other than that, as I say, all the issues relating 
to the bark beetles and litigation, et cetera, probably have 
already been covered.
    Senator Campbell. Would the chairman yield?
    Senator Burns. I would.

                       GROUNDED AIR TANKER FLEET

    Senator Campbell. I had asked you earlier if you would 
comment on the tanker fleet, too, that many of us are worried 
about so much, if you could do that.
    Mr. Bosworth. Yes. As you know, we had two accidents last 
year where the fatal crashes were air tankers: one was a C-130A 
and the other was a PB4Y. Subsequently, the Director of the 
Bureau of Land Management, Kathleen Clarke, and I commissioned 
a blue ribbon panel. It was a very high-level group of people 
from outside the Forest Service to evaluate our aerial 
firefighting program. They came back with some recommendations. 
We are looking through those and implementing some of those 
recommendations.
    But one of the things we have done is, we have grounded the 
C-130As and the PB4Ys. We are taking the rest of the large 
aircraft and, working with FAA, have developed an inspection 
and maintenance program. We are in the process of inspecting 
those before we are going to put them back in service. Once the 
inspections are completed, and we find out what kind of 
maintenance has to be done, then we will be able to move 
forward.
    It is my expectation that we will have retardant aircraft 
available this year. It may not be at the full level that we 
had last year. We are supplementing the numbers with what we 
call SEEDS--it is a single-engine aircraft as opposed to the 
larger ones. Then we also have--we are looking at more heavy-
lift helicopters.
    Senator Campbell. Those will be leases, I guess. You do not 
own any of those.
    Mr. Bosworth. That is right. The other part of it is, we 
need to make sure that we are putting those retardant aircraft 
in the right places. What I mean by that is, I think that the 
best place for using those is in the initial attack and 
extended attack. When you get these huge fires--like the Hayman 
fire, the Rodeo-Chedeski fire, and the Missionary Ridge fire--
in a lot of cases, heavy-lift helicopters are much more 
effective in terms of trying to protect private homes. You have 
seen how big those fires are. You know, dropping retardant in a 
lot of cases is just dropping dollar bills out of the aircraft 
and not doing much more than that.
    We will be prepared this year--maybe not at the full level, 
as we were, but we will be functioning very well.
    Senator Campbell. Thank you.
    Senator Burns. Senator Domenici.
    Senator Domenici. Thank you very much.
    First let me compliment you on your enthusiasm. I think it 
could be a good year for you and for the Forest Service. I was 
going to ask about your airplanes. You have answered that to my 
satisfaction.

                        WILDLAND FIRE MANAGEMENT

    I noted from my staff that a couple of weeks ago, in the 
Energy and Natural Resources Committee, you testified there 
that you expected to be able to put out 98 percent of the fires 
in 2004. I am wondering how you are going to do that. It is our 
understanding you are going to have about half the firefighters 
you had in 2002.
    Mr. Bosworth. What I would like to do first is put a chart 
up here for you to take a look at. I believe you have a copy of 
it in front of you there. It is the chart that shows--if you 
will notice there on the left, the blue circle: That is the 
total number of fires that we had between 1996 and 2001. That 
is that circle. The little pink pie shape in there is 1.8 
percent of those fires. That 1.8 percent are those fires that 
exceed 300 acres.
    So then if you go to the right and you look at the top 
circle, that is our suppression costs. What that shows is that 
86 percent of those suppression costs came from that little 
pink wedge on the left-hand side. In other words, the 1.8 
percent of the fires caused 86 percent of the costs and 95 
percent of the acres burned. The idea, then, is to keep that 
little pink wedge as small as you can keep it. If you could 
keep all fires less than 300 acres, then, of course, we could 
significantly reduce the dollars.
    Now, we are never going to be able to do that, not with 
drought and not with the situation we have with fuels. Our best 
hope to ever do that is by treating fuels. In the long term, 
there is hope that we could even significantly reduce the cost 
even more.
    So, then, our challenge is to look at that balance between 
suppression costs and preparedness costs to make sure that we 
have enough firefighters to do the initial attack, to keep 
those fires small, but still make sure that we have enough 
money to fight those large fires that we are going to have a 
certain amount of.
    There are differences of opinion about how much that ought 
to be. For me, the important thing is to have some flexibility 
to move funds back and forth between suppression and 
preparedness because, again, it depends so much on what the 
fire season looks like when you actually get closer to it. The 
fiscal year 2003 authority provided us that opportunity for 
2003. We will see how well that works this year. My expectation 
is that that will help us get the right level of preparedness 
and then still be able to do the job that we need in 
suppression.
    Senator Domenici. Well, you are saying that you want to try 
to have fewer big fires.
    Mr. Bosworth. That is right. We want fewer big fires 
because that is where the cost and that is where the acres are.
    Senator Domenici. Well, if you can do that, wonderful. We 
will give you some kind of medal if you can do that.

                          PROCESS PREDICAMENT

    Let me talk just a couple of minutes about the report on 
process predicament. I thank you for reminding me of it. I will 
review it. I am at fault for not having reviewed it if there 
are things in there that we ought to be doing. You have stated 
that you are going to be working to get at some of the 
predicaments in the process that that study revealed. We ought 
to be doing some of them if they are legislative. I hope we 
will look at them collectively and see what we can do.
    If there are any legislative changes in that that stand out 
to you, I would hope you would call it to our attention. We, 
too, have a responsibility to help you as you try to do that.
    Mr. Bosworth. Thank you. I would just like to respond very 
quickly if I could. The process predicament write-up does not 
give answers. It just kind of defines a problem. We are trying 
to work together to develop the answers.
    I would like to point out one thing that I have here since 
we are talking about process predicament. The Lolo National 
Forest had fires along with a lot of others in the year 2000. 
They attempted then to do some work, to do some restoration and 
rehabilitation. I would like to point out over here: This is an 
environmental impact statement. This stack here, which is a 
pretty good size stack of stuff--in order for them to do work 
on 752 acres of soil stabilization, 224 miles of road 
decommissioning--closing roads--2,172 acres of timber salvage, 
2,377 acres of commercial thinning, and 12,900 acres of 
reforestation--in order to do that work, it took this 
environmental impact statement.
    When we got the appeals, if you take this--we have the 
appeal record. That box--12 of those boxes is what it took to 
transfer the appeal record to the regional office from the 
forest--12 of those boxes to do the work on one forest after 
just one of the many, many fires that we had--to do some of the 
work of restoration and rehabilitation. That is why I am so 
focused on trying to deal with this process predicament. That 
is just a huge problem for us.
    Senator Domenici. Well, you know, we can just continue on 
and complain, or we can try to do something like you are doing 
and find some of the actual problems.

                        STEWARDSHIP CONTRACTING

    I have a personal commitment to myself to try to establish 
a presentable case for the use of the stewardship contracts. I 
have a certain entity that I would like to convince in my State 
that they are a good thing. To that end, I have the language of 
the law. I wonder if you could have one of your staff just take 
a couple of projects that have worked, even if they are small--
they do not have to be in my State, obviously--and just narrate 
how they start, who gets involved, how it proceeds beyond that, 
and how it ends up--being able to accomplish something 
collectively that is contemplated by this new statute. Could 
you do a couple of those for me, please?
    Mr. Bosworth. I would be very happy to do that. I could 
also make some people available to go through the whole process 
of what they used. We have some people in my office now who 
have actually done those, as forest supervisors, and who have 
now transferred into my office. They would be happy to sit 
down. They have done some projects that are very successful. 
They had a huge amount of public support for them. We would be 
happy to go through some of those examples.
    Senator Domenici. If you could get me one in writing. If I 
may--in New Mexico--want to ask you to send a couple of your 
people with me to show some constituents how it is done. If I 
could start with a written explanation, it would be extremely 
helpful to me.
    Mr. Bosworth. I will do that.

                       COUNTY PARTNERSHIP PROGRAM

    Senator Domenici. I have about 8 or 10 questions I am going 
to submit. One of which has to do with asking you whether you 
will continue to handle the so-called county partnership 
restoration program. Will you continue to work with the 
counties? There are a number of those going. Some of them are 
working. We do not want you to let up on that kind of 
relationship. Could you just take a minute or so and talk about 
that?
    Mr. Bosworth. The way that we are going to get these jobs 
done is through those kinds of partnerships. There are a number 
of projects that I know of that folks are working on, where 
county partnerships are working together, I think, in New 
Mexico, Arizona, and Colorado.
    Senator Domenici. Right. Lincoln is one, Apache----
    Mr. Bosworth. Apache-Sitgraves is one, and then the San 
Juan, I believe, is one.
    Senator Domenici. Right.
    Mr. Bosworth. Those folks are working together in that 
partnership to move forward.
    Now, we have not taken dollars off the top in my office and 
sent funds to those places specifically. We are looking at what 
kind of things we might be able to do in addition to help to 
make it easier for them to do that.
    Senator Domenici. The only thing we expect you to do is to 
continue to push those and give your blessings to them so that 
the people know they are for real and that you support them.
    Mr. Bosworth. I am more than willing to put emphasis, to 
talk it up, and to encourage the regions and the forests to 
take the dollars that we are giving them, and to work them into 
those partnership areas.
    The only thing I am reluctant to do--I am trying not to do 
very much of--is take dollars off the top here. I want to get 
as much money out as I can without me taking it off the top.
    Senator Domenici. Sure.
    Mr. Bosworth. So we have reduced that significantly, but 
boy--I am willing to do all the rest of that.
    Senator Domenici. Thank you. Thank you, Mr. Chairman.
    Senator Burns. Yes, sir.

                        WILDLAND-URBAN INTERFACE

    Would you put the last chart that you had up there, sir, 
please? I have a question regarding it. That is a very, very 
compelling chart that you have up there. I would just like to 
know--up there in the big blue circle where you do your circle 
irrigation up there--that is what it looks like, does it not?
    Mr. Bosworth. It does.
    Senator Burns. How many of those big fires started--or had 
their origination--started in your wildland-urban interface 
areas? Would you have any idea? Have you ever looked at that?
    Mr. Bosworth. We can get some information on that. I could 
not tell you just offhand. I am sitting here trying to decide--
what I was pausing about was whether or not, in my view, most 
of those would be in sort of roaded areas versus the 
backcountry kind of areas. I just do not know. I would have to 
do some work, particularly--and we can do that. I mean, I think 
you can get the information. We will see what we can find and 
at least figure out whether they are in the wildland-urban 
interface or whether they are in roaded versus unroaded areas.
    Senator Burns. And along with what Senator Domenici had to 
say, it would be good if we could do some kind of a white 
paper. He wants some concrete information that he can take to 
his communities in New Mexico as far as stewardship is 
concerned and how those are working.
    We also should take a look and see what changes we would 
have to make in the law to facilitate both what we are trying 
to do on the forest, and also take a look and see where the 
objections are--how we address those objections or those 
questions by people who would file these appeals--because, no 
doubt, some of those appeals have a legitimate basis. How do we 
address those in certain circumstances in order to deal with an 
isolated case? That would help us up here.
    Mr. Bosworth. That is part of--that is what the Healthy 
Forests Initiative wants to do in large part as well.
    Senator Burns. That is right.
    Mr. Bosworth. So that is why that proposal is out there.
    Senator Burns. Okay. Well, we sure appreciate your work on 
that.
    Senator Stevens, welcome to the committee this morning, the 
chairman of the full committee. We look forward to your--if you 
have a statement you may put it in the record.

                       TONGASS TIMBER REFORM ACT

    Senator Stevens. No, I do not have a statement, Mr. 
Chairman. We have four subcommittee meetings this morning. I am 
trying to go to each one. I am sorry to be late here, Mr. 
Bosworth. I have great interest in the Forest Service, as you 
know. We recently had to put a provision in the law to assure 
that the Tongass Timber Reform Act concept was finally approved 
in the Tongass Land Management Plan (TLMP). I hope that you 
will have no difficulty with that.
    Mr. Bosworth. Not at all.
    Senator Stevens. Are you all going to be able to observe 
that provision of the law?
    Mr. Bosworth. We are going to make every effort to do that, 
yes, I believe so.
    Senator Stevens. I have lived now through too many 
agreements with people over what happens in Alaska. One of them 
was in the Tongass Timber Reform Act. It was the third in a 
series of agreements we had to reach in order to continue 
Forest Service operations in Alaska, and harvesting timber. It 
has now been held up, as you know, for about 12 years or more. 
I hope that we will go ahead.
    Mr. Chairman, I am thinking about offering a provision that 
says anyone who challenges those plans must pay the loss of 
income to the people who have suffered by the delay--if they 
suffered--if they prevent going ahead now with the contracts 
that have been in place for so long, as far as harvesting 
Alaska timber.
    These people, who are just professional protesters in the 
legal profession, do nothing but file lawsuits in order to 
raise more money. The contributions go to a foundation they 
form themselves. They pay themselves and they have no downside 
when they lose. I think we have got to find some way to prevent 
people from holding up the harvesting of timber under a plan 
such as--I do not know if you know it--I opposed TLMP when it 
first came out. By the time it has gone through 12 years, I 
have no alternative but to support it.
    I do hope we can find some way to make certain it goes--I 
notice from your resume you never served in Alaska, Mr. 
Bosworth.
    Mr. Bosworth. I have never served in Alaska. I have been in 
a number of regions. I have been to Alaska a number of times. I 
spent a week there last year trying to gain a better 
understanding of the issues. There are some real challenges 
there. There are also some very good--we have some very good 
employees there. They are working hard.
    Senator Stevens. Well, we would invite you to come up, 
because, you know, some things that may work elsewhere, such as 
backfires and other things, can really cause holocausts in our 
State. I think it takes someone with firm professional 
experience to oversee operations on a day-to-day basis up 
there.

                   BEETLE KILL ON THE KENAI PENINSULA

    I went with Senator Domenici when they had those terrible 
fires out in his area. I could hardly believe them. We have 
now--I am told we have over 3 million acres of beetle kill on 
Federal lands that are in the vicinity of our major city of 
Anchorage, and coming up--that is the Kenai Peninsula, up 
towards the Matanuska Valley in Alaska. The beetle kill is 
substantial.
    I hope that under the President's new program that we can 
take some steps to try to thin out some of those dead trees so 
they do not provide the fuel for fires such as we have had 
before in that area. Beetle kill--I have flown over the forests 
when they are burning. The sinuosity of the fire follows the 
dead trees in our area. They just end up by consuming an 
enormous acreage of forest because the trees that are dead, 
because of the infestation, have not been removed.
    I hope you will look at a plan to try and remove some of 
those dead trees.
    Mr. Bosworth. Actually, when I was up visiting there last 
summer, I did get up in the Kenai. I did look at some of the 
area where the spruce is dead. It is a huge problem. I 
certainly agree with you. A lot of that is private land. Some 
of that is national forest. We are working through our State 
and Private Forestry program with private landowners. We are 
then trying to do as much as we can on the national forest as 
well.
    One of the successful programs I think also is the FIREWISE 
program there on the Kenai. We are working with those folks, 
the actual homeowners, helping them find ways that they can 
make their homes safer from fire. I appreciate your support and 
your attention on that.

                     ALASKA JURISDICTIONAL PROBLEMS

    Senator Stevens. You are right, it is a checkerboard of 
Federal ownership. Part of it is a wildlife refuge, for 
instance, and the forest surrounds that. The wildlife refuge 
was actually carved out of national forest lands in the past. 
There are enormous problems jurisdictionally between the two 
Federal agencies in determining how to deal with fires in the 
peninsula. In the final analysis, you know, we have less than 2 
percent of our land in private ownership. It is all surrounded 
by Federal or State land. If Federal and State people do not 
fight their fires, the people who suffer the most are the 
people who have the inholdings, so to speak, that are involved 
in those areas of heavy forestation.
    Southeastern Alaska, I am sure you saw, because of its 
rainfall, does not have as much difficulty. But it has been 
drier this year, too. We are going to have enormous fires if we 
do not get prepared for them.
    Mr. Bosworth. Again, my belief is that the solution is both 
fuels treatment and working together between State, Federal, 
local jurisdictions, and working with homeowners. We can do 
that by working together to make a big difference. That is an 
important part of the National Fire Plan.

                       ALASKA FOREST TRIP BY AIR

    Senator Stevens. Mr. Chairman, once in the past I got the 
cooperation of the Department of Defense. We took one of the 
enormous passenger planes from the military. We went through 
the forested area of our State. We had helicopters and National 
Guard standing by to take people, Senators and staff, out to 
look at these areas of really great risk to everybody. That is 
15 years ago now. I am not sure there are many people around 
here that made that trip.
    I would like to suggest to you that we try to organize a 
trip to go up there. It only takes a weekend, really. I think 
we should go up. We should ask Mr. Bosworth and some of his 
staff to go along. You just have to view it in totality. These 
are the two largest forests in the United States. Beyond that 
are millions of acres of forestland that is owned by the 
Federal Government. There is just not proper stewardship of 
handling the problem of infestation of the timber in 
particular.
    I do not want to belabor it. I urge you to think about it. 
I think that is a fantastic legacy for the future. I think the 
day will come when we will be compelled to resume harvesting 
that timber. We could have harvested that timber on a 103-, 
104-year cutting cycle, using only 10 percent of the forest, 
and supplied better than 450 million board feet forever. That 
has been challenged and cut back. As you know, we are down now 
last year to 34 million board feet.
    The year that I came to the Senate, the harvest was 1.5 
billion board feet. We still only cut--in the history of man, 
we have cut 3 percent of the forest. It does not make any sense 
what happened. I think more people in the Senate, and more of 
your people, need to be exposed to the whole of the totality of 
forest areas in Alaska in order to make sure we have a sound 
policy.
    I appreciate what you are doing. Thank you, Mr. Chairman.
    Senator Burns. Mr. Chairman, thank you for coming by. I 
noted, Senator, that he said he had spent 1 week up there last 
year in your forest. I spent 1 night up there that turned into 
1 week.
    You know how that is. He raises a very legitimate question, 
though, I will tell you that.

                NATIONAL FOREST LAND MANAGEMENT PLANNING

    There are a couple of things I want to ask you about, and 
then--forest plans, money to--we understand that they are 
incredibly costly, to do forest plans. Are you on schedule to 
do, redo forest plans--we have some coming up, I understand--
especially when it has taken us 5 to 6 years to prepare one of 
those things. How are we on that schedule of redoing some of 
the forest plans?
    Mr. Bosworth. We are behind in terms of--you know--we are 
supposed to have our plans done--they are supposed to be 
revised every 10 to 15 years, 15 being the outside. We have a 
number of forest plans that are 15 years and beyond.
    The important thing, I think, is our attempt to update the 
planning rule and, frankly, to modernize the planning rule. The 
way it has been--the last time it was done was back in the 
early 1980s and then, of course, in 2000. The problem with the 
2000 planning rule is that it would cost us an estimated $12 
million per forest plan to do a revision. It would take several 
years--I mean, probably more than what it has taken under the 
old rule. It is my strong desire to get the timeframe down to 
just a couple of years.
    I also have a belief that the only people that can be 
involved in forest planning, when it takes you 8 or 9 years, 
are those who are being paid to be involved. But the person who 
just cares--the person who likes to go hunting or fishing, or 
the person who wants to go camping--they cannot stay with it 
for 8 years and work with us for 8 years along with everybody 
else. So if we really want to work with the public in a 
collaborative way on how their forests are going to be managed, 
we have to get that timeframe down to just 2 years or 3 at the 
max.
    That is what our proposed planning rule would do, I am 
hoping and expecting. If it does, then I think we can make a 
huge difference, reduce costs, and get caught up.
    Senator Burns. The same thing on grazing permits?

                            RANGE MANAGEMENT

    Mr. Bosworth. In the 2004 President's budget we are 
increasing the amount for Range that would--I will have Hank 
give you the dollars--that would increase the number of 
allotments that we could get under NEPA by about 30 percent, I 
believe. Can you give him the figures specifically, Hank?
    Mr. Kashdan. Yes.
    Senator Burns. Turn your microphone around there, Henry.
    Mr. Kashdan. Mr. Chairman, the grazing increase of $7.3 
million, compared to the President's budget, would enable us to 
do 33 percent more allotments and get them under decision 
notices than we had been able to do in 2002. You would still 
continue to have the backlog issues.
    Senator Burns. You still would, okay. That goes hand in 
hand, I think, with the forest plans and the grazing permits. 
All this is linked together, the invasive weeds, these forest 
plans, grazing permits.

                        NOXIOUS WEEDS MANAGEMENT

    Now, if you think just getting rid of weeds, that helps, 
especially in sheep. Now, cattle not so much. The cows will not 
eat that stuff. Sheep will. Doing these grazing permits is 
very, very important not only from a weed standpoint, but also 
in our fire management.
    Where we had grazing, we do not have those really hot 
fires. That excess grass and undergrowth is--and sheep browse--
that is all taken away. It is part of fuels reduction. It does 
not hurt the land. We can do that--not using tax dollars--to 
remove some of those undesirable things that we think that are 
on our forests--such as weed management--and that costs--and 
also fuels reduction.
    There are some natural harvesters out here that will help 
us manage our forests. I do not know why we are not using those 
tools. Any other person who is in charge of managing--just like 
I said: The old equation of sun, water, and soil--and using 
those resources--and knowing how to use those resources.
    Now, does it work on every forest? No, it does not. That is 
why we cannot write a law that one size fits everything. It 
just does not. There are circumstances. There are growing 
seasons. There are variables in moisture, a lot of variables, 
that we have to take into account. It takes a really 
experienced person to understand what forest I am managing and 
what practices work, and what practices do not work. That is 
why it just has to happen that way.
    You can take every ranch in the State of Montana--and Dale, 
you know this as well as anybody else--and no two ranches are 
alike. They may lie right next to one another. How you manage 
it; how you take care of it; how you make it produce--but I 
will tell you, I bet the guy that has lived there for a 
generation-and-a-half or two generations--they know how to 
manage it. The next guy comes by and he buys it--he changes 
everything--he learns pretty quick--some things work and some 
things do not work.
    By the way, I called the Park Service up. I had a way to 
get that guy on that John Deere tractor out of that puddle but 
they did not take my advice down there.
    Just comment on that, then. I think those issues really 
link together. I would help us to complete as much of this as 
we can. That really enables us to deal with some of the 
problems we have, this management problem.

                              LEAFY SPURGE

    Mr. Bosworth. I would like to say something, first, about 
leafy spurge up there. I did not respond to it when Senator 
Dorgan was here. I know what leafy spurge is. It is a huge 
problem. Springtime, as you know--it will have yellow flowers 
on it. Most leafy spurge that has been there for a while will 
have a root system that is 20 and 30 feet deep.
    Senator Burns. That is right.
    Mr. Bosworth. You cannot pull it out when it is 20 or 30 
feet deep. You can pull it and break it but it just pops right 
back up again. You can do some things with grazing. Both goats 
and sheep will eat it. We have even tried in some places to 
contract with goats to pay, in other words, to graze, to try to 
eradicate leafy spurge.
    We are also making some progress on leafy spurge with 
wasps, the bugs that are natural enemies to it.
    Senator Burns. Doing work at Sidney, Montana.
    Mr. Bosworth. Yes, that is correct, and at a couple of 
other places along the Smith River we are working with it, too.

                            INVASIVE SPECIES

    I will tell you, I am so convinced that invasive species--
which would be insects, diseases, and weeds--are probably one 
of the biggest threats to our national forests and grasslands 
that there is, and not just to the national forests but the 
Nation's forests and grasslands. I mean, it is a huge problem. 
Our country spends a lot of money every year trying to deal 
with invasive species--either insects, diseases, or weeds--and 
I will be very happy to work with you to try to improve our 
program and to do it better. But it has to be integrated, like 
you say.
    Senator Burns. Right.
    Mr. Bosworth. When we have fires, when we have wildfires, 
we end up with a spread of--knapweed, for example, in the 
Bitterroot Valley. After those fires, we just had bumper crops 
of----
    Senator Burns. Knap.
    Mr. Bosworth [continuing]. Of knapweed, yes. That is one of 
the problems that you have in many places in the West now. When 
we have fire, whether it is a prescribed burn or whether it is 
a natural fire, we have got to be doing something about weeds 
right after the fire because there are so many of them.
    But again, to me it is essential that this be integrated 
between the fire, between the insects, between the diseases, 
between the weeds, and that our management work on all parts of 
those together. It is critical.
    Senator Burns. I do not know whether you have had the 
opportunity to visit with Packy Burns yet--no relation--no 
relation. She lives at Big Timber. They run sheep in the Big 
Timber area. She contracts out to private lands and also 
permittees. She takes her bands of sheep wherever she is 
contracted. They pay her to come in and do it.
    Mr. Bosworth. No, I have not met her.
    Senator Burns. Well, you ought to meet her. She is a very 
interesting woman and, of course, I knew her old father-in-law 
many years ago. He had sheep and cattle in the big sheep and 
timber area. We used to do a lot of business in Sweet Grass 
County.
    We thank you for your testimony today. I just want to say 
publicly, I remember that when you came to this office I had 
the feeling that we made the right choice, that the President 
made the right choice to put you in charge of the Forest 
Service. You sure have not been a disappointment. I just want 
to congratulate you on the work that you are doing.
    We are not going to agree on everything. No people do. 
Differences of opinion are what make the country go. Generally, 
though, when I talk to your people who are on the ground, 
morale is very good. You are to be complimented on putting some 
people around the forests. I think that are doing as good a job 
as they can possibly do under the conditions they have to do 
them.
    So thank you for coming this morning. We are willing to 
work with you on funding those areas--that white paper on what 
we can do on stewardship, how we make it work, and how we make 
it work for everybody in America. Thank you for coming this 
morning.
    Mr. Bosworth. Thank you, and thank you for those comments.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Burns. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Question Submitted by Senator Pete Domenici
                     county partnership restoration
    Question. Chief Bosworth, I know that last year you made efforts to 
ensure the Lincoln, Apache-Sitgreaves, and GMUG National Forest 
received funding to work with County Partner Restoration Projects to 
help reduce hazardous fuels loads in Arizona, New Mexico, and Colorado.
    I am told that last year, before you had to pull back funding to 
pay for fiscal year 2002 fire fighting, that about $1 million was 
slated to be expended on these three forests for this type of work. How 
much funding should we anticipate will be slated for these three 
forests this year?
    Answer. The following table displays Hazardous Fuels, Forest 
Health, and Vegetation/Watershed funds committed to the County Partner 
Restoration projects for the three forests in fiscal year 2003:

----------------------------------------------------------------------------------------------------------------
                                                                             Apache-
                                                               Lincoln NF   Seagraves    GMUG NF's     Total by
                                                                                NF                       BLI
----------------------------------------------------------------------------------------------------------------
Hazardous Fuels.............................................      ( \1\ )      ( \1\ )      $90,000      $90,000
Forest Health...............................................      ( \1\ )      ( \1\ )       33,000       33,000
Veg/Watershed...............................................     $330,000     $305,000      ( \1\ )      635,000
                                                             ---------------------------------------------------
      Total by Forest.......................................      330,000      305,000      123,000      758,000
----------------------------------------------------------------------------------------------------------------
\1\ None.

                          deferred maintenance
    Question. Chief Bosworth, I note Deferred Maintenance/
Infrastructure Improvements is down $50.9 Million from the fiscal year 
2003 request of $50.9 Million. In fiscal year 2002 we funded this line 
Item at $61 Million.
    With your current budget, are you able to fully manage and maintain 
the ecosystem health of the lands that are already entrusted to the 
Forest Service? Please provide a yes or no answer?
    Answer. No. However, the Agency's efforts will be to focus on the 
critical high priority work. Limited resources and combined with a 
multitude of resource management issues at the ecosystem level on the 
191 million acre National Forest System requires the careful balancing 
of funding priorities reflected in the fiscal year 2004 Budget. Within 
the Capital Improvement and Maintenance budget line items, the focus is 
on addressing the critical deferred maintenance health & safety items 
deferred maintenance backlog.
    Question. Specifically, which programs will not be funded at 
amounts called for in the Forest Plans, as a result of the fiscal year 
2004 budget request?
    Answer. Forest Land and Resource Management Plans (or Forest Plans) 
do not identify specific funding needs for an individual program in a 
given year. Forest Plans are the result of completing the middle-level 
of the agency's 3-tiered planning process. They are programmatic 
documents that tier from the agency's strategic plan and establish a 
framework for identifying, planning and implementing projects designed 
to achieve Forest and agency objectives.
    Program funding needs for a fiscal year are determined based on a 
combination of factors, including the results of project level planning 
within each program. The agency identifies various combinations of 
programmatic needs in its budget submission that are designed to 
address different sets of goals, objectives, and budget constraints. 
Reduced funding in any program will result in less work being 
accomplished on the ground and potentially lengthen the time it takes 
Forests to achieve their Plan objectives and the agency to achieve its 
strategic objectives.
    Question. I also note that there are a significant number of insect 
and disease outbreaks that are not being sanitized or salvaged. Would 
you provide me an explanation of the relative priority given to 
treating these outbreaks as compared to completing deferred 
maintenance?
    Answer. The President's Budget provides a balanced program to meet 
forest health protection and deferred maintenance/infrastructure 
improvement needs.
                 vibrant forest and range based economy
    Question. Give me a list of the legislative changes that you need 
to ensure you can implement the National Fire Plan, not only in a safe 
and effective manner but also in a manner that is environmentally 
acceptable?
    Answer. If Healthy Forest legislation is enacted, we don't 
anticipate a need for other legislative action. We are in the process 
of establishing and implementing several Healthy Forest related 
administrative actions that will enable the Forest Service to safely 
and more effectively implement the National Fire Plan. We will keep you 
informed of any change in circumstances.
                           fire preparedness
    Question. Chief, a couple of weeks ago you testified to the Energy 
and Natural Resources Committee that you expect to be able to put out 
98 percent of the fires that start in fiscal year 2004. I am wondering 
how you will accomplish this with half as many fire fighters as you had 
in 2002?
    Answer. Preparedness funding was at an all-time high in 2001, the 
first year of the National Fire Plan. This included significant funds 
for one-time purchases of heavy equipment including engines and dozers 
to reach a maximal readiness level. While of that equipment will have 
to be replaced someday, annual investments needs not be maintained at 
the 2001 level.
    In 2002, fire readiness proved to be as good as or better than 
ever. Ninety-nine percent of wildfires on Forest Service-managed lands 
were controlled on initial attack. Preparedness funding in the fiscal 
year 2004 is $9 million higher than fiscal year 2003 request. 
Preparedness funding will be targeted in 2003 and 2004 to maintain the 
agency preparedness at the highest level possible, with resources being 
positioned in the area of extreme fire danger. In addition, resources 
will be moved throughout the fire season to areas in need. If 2004 is 
another severe fire season, the fire program has the flexibility to 
augment Preparedness funding with ``severity'' funds from the 
suppression account to fund the placement of additional resources in 
the areas most at risk from catastrophic wildfires in order to maintain 
sufficient readiness and initial attack capability.
    Unfortunately, no amount of preparedness can prevent all fires from 
escaping to levels requiring extended fire suppression. When fires 
become large, the costs to contain them become large as well. The rise 
in the 10-year average recognizes the long-term trend in fire frequency 
and severity. Even so, even that increase falls below the costs of the 
past three years. We consider it prudent to maintain a funding level 
based on the 10-year average. Anything less would seem shortsighted 
given what we know today.
    I have directed the Regional Foresters to use funds for the purpose 
of attaining preparedness levels that are similar to fiscal year 2002. 
The following table displays a comparison of what we plan to provide in 
fiscal year 2003 versus 2003.

------------------------------------------------------------------------
                                          Fiscal year
          Resource type           --------------------------     2003
                                   2002 actual   2003 base     planned
------------------------------------------------------------------------
Firefighters.....................       10,480        6,008       10,480
Prevention Techs.................          403          296          332
Engines..........................          995          700        1,072
Forest Helicopters...............           75           57           87
National Helicopters.............            7            8            8
Smokejumpers.....................          277          277          277
Type I Crews.....................           65           65           65
Airtankers.......................           41           33           33
------------------------------------------------------------------------

    Question. I also see that you have grounded 11 heavy slurry bombers 
and 11 of 19 of your Beech Craft lead planes. Half as many fire 
fighters, half your lead planes gone, and quarter of your slurry 
bombers out of commission. Please provide specific steps that you have 
taken to make up the 50 percent reduction in fire fighters and the 
grounding of these aircraft?
    Answer. We have some concern about the loss of 11 large airtankers 
but feel we have several alternatives available to us that will 
mitigate the effect of losing this capability. In our 2003 Fire 
Operations planning we are instructing Incident Commanders to shift the 
emphasis of the airtanker fleet to initial attack rather than large 
fire support. We will shift suppression tactics from those that require 
close air support to those that do not require such close support 
(direct fireline construction versus more indirect). This may cause a 
marginal increase in total burned acres but not enough to be 
significant. We will add contract helicopters with aerial suppressant 
capability to help offset the loss of the airtankers. Finally, we will 
add as many as 11 Single Engine Airtankers (SEATS) to help with local 
initial attack. In a normal year, these alternatives will allow us to 
effectively suppress wildland fire without compromising safety, burned 
acres, and program costs.
                        stewardship contracting
    Question. Chief, you advocated for stewardship contracting while 
you were in Region One. Can you tell us how that worked in Region One 
and how you see using Stewardship Contracting in New Mexico? 
Specifically, what type of projects are you thinking about implementing 
in New Mexico under this program?
    Answer. The demonstration pilot authority for stewardship 
contracting in the Northern Region (Region 1) has shown that some 
projects are better able to get needed work done in an area than what 
could be accomplished using a timber sale.
    In the Southwestern Region (Region 3), the Cibola National Forest 
is currently working on an existing stewardship contract on the Mt. 
Taylor Ranger District, and has also started to work on a new one using 
the new authorities on the Mountainair Ranger District. The Mt. Taylor 
Ranger District is also working on a new environmental impact statement 
that is scheduled for completion in fiscal year 2004 and is currently 
planned to be implemented through a stewardship contract. In addition, 
the Lincoln National Forest and the Santa Fe National Forest have 
stewardship contracts that will be completed by the end of the current 
calendar year. All the National Forests in New Mexico are looking at 
stewardship contracting opportunities and are interested in completing 
projects with this new authority.
                          insects and disease
    Question. As you know we have a large area of forest that is being 
devastated by bark beetles in Northern New Mexico. This has been on 
going for several years and is likely to continue and spread due to the 
drought.
    Can you tell me the specific steps the National Forests in New 
Mexico are taking to combat these insects and stop the spread of the 
outbreaks?
    Answer. Severe drought conditions and overcrowding have weakened 
many trees in New Mexico, including those on the National Forests. 
These weakened trees are now being attacked and killed by native bark 
beetles. Pinon and ponderosa pines are most severely affected. Large 
scale control measures to stop the beetle outbreaks are not feasible. 
However, spraying of 55 high-value trees to protect them from attack 
was completed in two campgrounds on the Santa Fe National Forest in 
March 2003. Thinning to enhance tree vigor is planned for those and 
several additional developed recreation sites on the Santa Fe National 
Forest. The thinning is scheduled to begin in the fall, when cutting 
activities are less likely to attract bark beetles. Thinning currently 
underway on the Santa Fe Watershed includes mastication, or shredding, 
of woody debris, rendering it unsuitable for bark beetle breeding. A 
pine bark beetle strategic communication plan is being utilized to 
provide the public with information about bark beetle activity, 
management, and impacts. A bark beetle website has been developed to 
provide information online: http://www.fs.fed.us/r3/resources/health/
index.shtml
    Information has been provided in the form of presentations to 
adults and children, in articles, responses to phone and internet 
questions, and dissemination of literature. An informal interagency 
bark beetle meeting was held at the FS Southwestern Regional Office on 
June 24, 2003 to discuss bark beetle impacts and explore opportunities 
for information-sharing and coordination. In attendance were 
representatives from the Forest Service, the BLM, the BIA, and the NM 
State Forestry Division. A follow-up meeting is planned. The 
Southwestern Region is participating in a Forest Service interregional 
pinon mortality assessment which includes supplemental aerial surveys 
of pinon-juniper woodlands over about 2 million acres in NM. Ground 
crews will also be collecting field data. Surveyed lands will be across 
all ownerships and will cover about 22 percent of the pinon-juniper 
woodlands which exist in New Mexico. The Forest Service solicited input 
from State and federal agencies to delineate priority areas of private 
and public lands to be surveyed. Traps to monitor the pinon ips spring 
emergence, number of generations produced per year, and onset of 
hibernation have been placed in six locations across New Mexico to aid 
in our understanding of this insect's behavior.
    Question. Also specifically, what steps you are taking on each 
forest to remove this dead timber before it provides the fuel for 
another catastrophic fire?
    Answer. The mortality in northern New Mexico is primarily occurring 
in pinyon pine in the pinyon-juniper woodlands. This mortality is at 
the higher elevations, and is quite scattered. Because most of the 
mortality is pinyon pine, very little salvage is occurring, aside from 
firewood gathering. Most Forests do treat areas where personal use 
firewood gathering occurs, but they are not planning on doing any 
large-scale salvage to combat bark beetle outbreaks. All Forests are 
continuing to encourage salvage removal where trees are accessible. 
Some thinning is occurring around Las Alamos using FEMA fuels reduction 
dollars. The state also has a fuels reduction program on private lands, 
where most of the pinyon pine mortality has occurred. However, pinyon 
pine infected by the ips beetle decomposes rapidly, and after one 
season is no longer useful as fuelwood.
    As long as the dead needles remain on the trees, there is an 
increased risk of fire ignition. However, once the needles fall, the 
fire hazard for defoliated standing dead trees is less than for 
standing green trees. Needle fall can take as little as 6 months in 
pinyon pine or as much as 2 years in ponderosa pine. The only way a 
fire in a pinyon-juniper stand will advance is with a sustained stiff 
wind, because many of the high mortality sites have almost no 
understory vegetation and are quite rocky.
    Forests have begun using the new timber salvage categorical 
exclusion authority so that our removal efforts can be focused in a 
timely manner to remove the material that is still useful. This 
authority allows Ranger Districts to treat larger areas and create 
effective barriers at key points on the Forest.
                                 ______
                                 
         Questions Submitted by Senator Ben Nighthorse Campbell
    Question. Last year's fires were not helped by the fact that 
Colorado and much of the West was and still is experiencing the worst 
drought on record. As you know, catastrophic wildfires can have 
catastrophic effects on watersheds where communities located below the 
National Forest boundary get their water. Many communities are 
concerned about the threat of ash and sediment from wildfires clogging 
their ditches, reservoirs, and drinking water intakes in the middle of 
this drought.
    I would be interested to learn a little more about how the Forest 
Service is working with local communities to guard against future water 
contamination due to fires, as well as what they are doing now to 
rehabilitate those affected watersheds. I'm sure that the Forest 
Service really appreciates the effects fire has on existing municipal 
water supplies and is willing to work with the state.
    Answer. Prevention.--The agency's first efforts are directed 
towards reducing the risk of catastrophic wildfire occurrence. The 
National Fire Plan and the President's Healthy Forests Initiative 
provide the agency with strategic guidance for implementing this goal. 
In close cooperation with the Department of Interior, states, local 
governments, and communities, the Forest Service is working to reduce 
hazardous fuels accumulation, and to manage wildland/urban interface 
forests to be more resistant to catastrophic wildfires. In spite of a 
very challenging fire suppression season, the Forest Service reduced 
hazardous fuels on 1.3 million acres in fiscal year 2002.
    Stabilization.--Before a catastrophic wildfire has been 
extinguished, the agency quickly mobilizes Burned Area Emergency 
Response (BAER) teams to assess environmental degradation. Water 
quality and flood potential are prime considerations. The team 
establishes objectives for protecting water resources and prescribes 
needed actions. Treatments may continue up to a year after the fire, 
and monitoring of affected watersheds continue for up to three years.
    In 2002, the Forest Service conducted 130 BAER assessments, 
authorizing $70 million of emergency stabilization work. $47.7 million 
was obligated in fiscal year 2002. These projects will treat 136,000 
acres of severely burned land, of which about 90,000 acres were treated 
before the winter snows. Typical emergency actions include stabilizing 
slopes with log structures, straw wattles, and straw mulch, installing 
larger culverts to handle increased water flows, and seeding burned 
areas. Communities are protected from flood by installation of flood 
warning systems and construction of impoundments to reduce peak flows.
    The Hayman Fire stabilization work illustrates the types of 
accomplishments achieved through BAER team efforts. Hayman Fire BAER 
treatments cost $24 million of the $70 million authorized in fiscal 
year 2002, resulting in the following accomplishments:
                          assessment of threat
    Sedimentation of a major water supply reservoir: Post fire erosion 
into Cheesman Reservoir may exceed 1 million tons in the first year if 
storms of 1 inch per day occur.
             establishment of emergency treatment objective
    Reduce impacts to the Denver water supply reservoirs and the water 
quality-listed streams.
    Reduce erosion by establishing ground cover and increasing 
infiltration by scarifying the soil surface.
    Hayman BAER treatments in this emergency phase have been aimed at 
re-establishing the vegetative cover lost in the fire. Ground cover 
holds the soil in place, allows absorption of water into the ground, 
minimizes runoff, reproduces wildlife habitat and generally rejuvenates 
the area. Often, soils in fire areas where high intensity burn occurs 
become water repellent, and the hardened surface must be broken up by 
scarification, or raking, as part of the treatment.
                           aerial operations
    Application of hydro-mulch (recycled wood fiber, grass seed, water 
and a binding agent) has been applied via helicopter on 1,569 acres of 
heavily burned slope. This work was completed in September 2002.
    Aerial seeding is complete on over 19,835 acres. The seed mix is an 
annual cereal rye mixture, which will germinate readily and persist for 
two to three years to provide ground cover until the native grasses and 
forbs come back.
    Approximately 6,000 acres have been treated as part of an aerial 
dry mulching project (applying straw to burned slopes via helicopter) 
during September 2002. Straw is applied over previously seeded areas. 
The straw helps to minimize erosion during rains, and provides 
necessary moisture and shade for quicker seed germination.
                           ground operations
    Seeding and scarification (raking the soil) has been completed on 
13,800 acres.
    Hydro-mulch is being applied by truck to 1,500 acres along Forest 
Roads and highways, 300 feet on either side of 25 miles of designated 
roads. Work was completed in October 2002.
    Many private landowners in the burn area have been contacted to 
assess risks from adjacent National Forest lands. BAER is working with 
Natural Resource Conservation Service to formulate and implement 
rehabilitation plans with landowners.
    Culverts and stream crossings within the burn area are being 
cleaned and reinforced to prevent washout along roads. Grading and 
reconditioning of the roads within the fire area is ongoing.
    The Lake George Community Park has been demobilized, and the 
grounds within and around the camp are being rehabilitated. The roads 
at the Lake George Community Park have been graded and reconditioned. 
The area used for the fire camp is being seeded and straw mulch is 
being applied. The park has been reopened for public use.
    Treatment of noxious weeds is complete on 340 acres within and 
adjacent to the fire area.
    An archaeological assessment and clearance of all areas where BAER 
treatment will create ground disturbance has been achieved. Two sites 
within the fire area were identified as needing protection using straw-
bale check-dams, which have been completed.
    Remote Area Weather Stations (RAWS) have been installed in and 
around the fire area. This will facilitate early detection of rainfall 
for public evacuation and emergency warnings when needed.
    Additional details on accomplishments at the Hayman fire are 
available at www.fs.fed.us/r2/psicc/hayres/baer/index.htm.
    Rehabilitation.--Efforts to repair damage caused by the fire begins 
as soon as the fire is out, and focus on lands unlikely to quickly 
recover from fire damage through natural processes. In fiscal year 
2002, the Forest Service implemented 518 projects costing $35.8 
million. These projects treated 435,000 acres of severely burned land 
through invasive plant control, seeding, planting, and watershed 
improvements on federal lands. Additional work was accomplished on 
trail reconstruction, roadwork, riparian enhancement, fencing and 
boundary line location.
    Communities are included in rehabilitation efforts. In June 2002, 
the Hayman Recovery Assistance Center (HayRAC) was established in 
Castle Rock, to aid victims of the Hayman Fire. This recovery 
assistance center provided representatives from state, federal and non-
profit agencies who provided information on financial, logistical, 
human services, and fire rehabilitation techniques to citizens and 
businesses directly impacted by the Hayman Fire. The center served as a 
central source of information during and after the fire, providing a 
mechanism to coordinate interagency restoration and recovery efforts 
with the community, collaborating on short and long-term restoration 
needs, and coordination and facilitating volunteer programs to support 
community and forest restoration efforts. In 2002, HayRAC coordinated 
55 volunteer projects, with more than 3,000 volunteers, for about 
22,000 volunteer hours, and responded to about 1,600 phone calls for 
fire recovery assistance.
    Question. Recognizing the drought conditions that the West, in 
particular, is facing, I think that it is more important than ever for 
the Forest Service to commit to work with the states in good faith on 
water issues. Unfortunately, some in the Forest Service have tried to 
impose bypass flows in our national forests, and circumvent working 
through state instream flow programs. You are aware that bypass flows 
are estimated to cause a reduction in the dry-year water supplies 
available from water facilities on National Forest lands by 50 to 80 
percent?
    Answer. There are numerous permitted water storage and transmission 
facilities on National Forest lands in the west. Some of these 
authorizations have clauses that allow for temporary changes to 
authorization conditions during times of drought or emergency. Prior to 
last year these drought clauses had generally not been invoked, and 
many were undefined. In 2002, we worked actively with Denver Water, and 
others to modify authorization terms and conditions to allow for needed 
flexibility in operation during the drought. We will continue to work 
with facility managers and water providers in 2003 to meet changing 
storage and operation needs that have resulted from the drought.
    Question. Isn't the Forest Service's official policy to work with 
the states, pursuant to state law in administering water? Can I tell 
city officials in Colorado, as well as farmers and ranchers, that you, 
and the Forest Service in general, are committed to working through the 
state instream flow program and eliminating the perception of threats 
to existing water supplies by imposing bypass flows?
    Answer. The Forest Service has, and will continue, to work with 
states, tribal governments, water users, and any interested parties in 
resolving water issues on National Forest System lands in accordance 
with both federal and state laws. The State of Colorado's instream flow 
program falls short of meeting the needs of the United States in the 
matter of in-stream flow protection for federal purposes, such as, but 
not limited to, wilderness areas, wild and scenic rivers, and habitat 
for aquatic species listed under the Endangered Species Act. In other 
western states, the Forest Service does participate in state in-stream 
flow programs where its water needs can be met with reasonable legal 
certainty. The Forest Service has been very judicious about requiring 
instream flow conditions in its land use occupancy permits and 
easements, and will continue to unilaterally require bypass flows as a 
last resort when other options to sustain aquatic resource values have 
failed.
    Question. Colorado experienced its worst fire season on record last 
summer. My compliments go to the brave men and women who risked their 
lives to fight these fires. We also learned some lessons last summer 
and maybe you can tell me what adjustments we are making in 
anticipation of this year's fire season.
    Particularly, how do we use our local resources in suppression 
operations?
    Answer. We use predictive services and monitor local conditions to 
adjust resource locations so that new starts can be suppressed quickly. 
If we can respond to these new starts and suppress them within 24 
hours, we can minimize their cost. Wildland fires that resist 
suppression efforts typically transition from a small, inexpensive 
event to something larger and more expensive within the first 24-48 
hours of the event start. We emphasize and concentrate on aggressive 
initial attack to minimize large fire occurrence. It's not a question 
of what we can do better during the first 72 hours of an event. Our 
firefighters are very successful in initial attack. During the fiscal 
year 2002 fire season, they caught more than 99 percent of all 
unplanned and unwanted wildland fires during initial attack. What we 
need to do is continue to support the initial attack force by 
maintaining training curriculums, providing quality equipment, develop 
the lessons learned program, and maintaining coordination and 
intelligence systems.
    Question. How do we follow up with our communities to make sure we 
are reducing the risk?
    Answer. Local project managers carry out project monitoring. 
Project plans for treatments on National Forest lands adjacent to 
communities typically include specific objectives for addressing risk 
to the community. Appropriate project follow up includes assessment of 
how well project objectives have been met. Such project monitoring is 
the responsibility of the District Ranger. Federal financial and 
technical assistance, provided in conjunction with the efforts of State 
Foresters and other state, local, or tribal governments, will be 
increasingly focused upon the optimal reduction of the risk posed by 
catastrophic wildfires, particularly in the wildland-urban interface. 
In these efforts, communities, non-government organizations, and 
private landowners also have a key responsibility. In most cases such 
projects are developed using project planning standards similar to 
those used by the Federal agencies. Project plans establish risk 
reduction objectives. Federal agency grant administration includes spot 
reviews of projects to establish effectiveness of projects delivered by 
State Foresters or other grant recipients. Success may be judged by a 
measured change in the vegetation condition class or by simply a 
reduction from a high risk ranking to a moderate or low risk based on 
the rating system applied for the area.
    Question. One other thing, with the drought and the forest 
conditions what can we do better during the first 72 hours of a fire?
    Answer. After the 2002 fire season, the Forest Service reviewed 
lessons learned, after action assessments, and formal program reviews 
to develop new direction, clarify existing direction, and communicate 
expectations of line officers and Incident Commanders. These 
considerations manifested themselves in a Fire and Aviation Operations 
Action Plan for the 2003 fire season. This plan emphasizes four areas 
(Preparedness, cost containment, hazardous fuel treatment, and safety) 
of the Fire and Aviation Management program where I expect improved 
performance from the line officers, Incident Commanders, and other 
personnel involved in the conduct of operations in these areas. The 
plan seeks to improve fiscal integrity and reflects important 
performance measures.
    Specific to your question, initial attack and extended attack are 
the number one mobilization priority. We will continue to use 
predictive services, anticipate threats, and pre-position protection 
resources to those local areas that may need additional resources. Our 
first priority will be to maintain sufficient local initial attack 
resources to maximize our ability to staff new fire starts. Our second 
priority will be large fire support. These actions will continue to 
allow us to minimize the number of fires that grow large and require a 
larger response.
    Question. I wanted to mention to you the National Forest County 
Partnership Restoration program. This pilot program is an example of 
how restoration programs can be led by communities as Congress had 
requested.
    As I understand it from the restoration program that serves the 
area I live in down in southwestern Colorado, funding for the three 
partnerships that were created has not reached those who need it.
    Could you give me your views on this program and what is being done 
to fund it?
    Answer. The Forest Service supports the collaborative approach in 
the development of restoration programs. Funding for restoration 
programs should be developed through the normal budget process.
    This program involves a total of three forests, two forests in R-3, 
the Apache-Sitgreaves NF in AZ and the Lincoln NF in NM, and one forest 
in R-2, the Grand Mesa Uncompahgre and Gunnison (GMUG) NF in CO. The 
program is a multi-year collaborative partnership between the Forest 
Service and County governments for large-scale landscape restoration 
utilizing an adaptive management process. It will test streamlined 
processes in administration, contracting, planning and inter-agency 
cooperation with an idea toward national application of the model
    In fiscal year 2002 each forest was allocated between $305,000 and 
$330,000 in start up funding. Given the severity of the 2002 fire 
season, not all of the funds were obligated, consistent with the 
Chief's direction on deferring funds as a result of fire suppression 
needs. The GMUG Forest received some of this funding in fiscal year 
2003 as carryover, and the R-3 Forests received a 2nd year allocation 
in fiscal year 2003 dollars. Fiscal year 2004 allocations for the CPR 
program have not been finalized.
    The three Forests and three Lead Counties have completed a Master 
MOU for the CPR Program. The following table displays Hazardous Fuels, 
Forest Health, and Vegetation/Watershed funds committed to the County 
Partner Restoration projects for the three forests in fiscal year 2003:

----------------------------------------------------------------------------------------------------------------
                                                                             Apache-
                                                               Lincoln NF   Seagraves    GMUG NF's     Total by
                                                                                NF                       BLI
----------------------------------------------------------------------------------------------------------------
Hazardous Fuels.............................................      ( \1\ )      ( \1\ )      $90,000      $90,000
Forest Health...............................................      ( \1\ )      ( \1\ )       33,000       33,000
Veg/Watershed...............................................     $330,000     $305,000      ( \1\ )      635,000
                                                             ---------------------------------------------------
      Total by Forest.......................................      330,000      305,000      123,000      758,000
----------------------------------------------------------------------------------------------------------------
\1\ None.

                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan
                              firefighters
    Question. According to the National Interagency Fire Center, much 
of the West is expected to experience an above normal fire season. If 
that turns out to be true, I'm concerned that the Forest Service would 
be unable to handle 7 million acres of fire with the resources being 
requested in this budget. Your Preparedness request of $610 million 
would provide for 4,900 firefighters, which is 53 percent fewer than 
the 10,480 you employed in fiscal year 2002; 465 fire engines, which is 
53 percent fewer than the 995 you had in fiscal year 2002; and 48 
helicopters, which is 49 percent fewer than the 94 that were available 
in fiscal year 2002. It seems to me that the administration is 
proposing to cut its firefighting capability in half, while at the same 
time the fire experts are predicting an above normal fire season. How 
does the administration square that incongruity? And what was the 
dollar amount requested for Preparedness; both the request to the 
Agriculture Department, and the department's request to the Office of 
Management and Budget?
    Answer. Preparedness funding was at an all-time high in 2001, the 
first year of the National Fire Plan. This included significant funds 
for one-time purchases of heavy equipment including engines and dozers 
to reach a maximal readiness level. While some of that equipment will 
have to be replaced someday, annual investments needs not be maintained 
at the 2001 level.
    In 2002, fire readiness proved to be as good as or better than 
ever. Ninety-nine percent of wildfires on Forest Service-managed lands 
were controlled on initial attack. Preparedness funding in the fiscal 
year 2004 is $9 million higher than fiscal year 2003 request. 
Preparedness funding will be targeted in 2003 and 2004 to maintain the 
agency preparedness at the highest level possible, with resources being 
positioned in the area of extreme fire danger. In addition, resources 
will be moved throughout the fire season to areas in need. If 2004 is 
another severe fire season, the fire program has the flexibility to 
augment Preparedness funding with ``severity'' funds from the 
suppression account to fund the placement of additional resources in 
the areas most at risk from catastrophic wildfires in order to maintain 
sufficient readiness and initial attack capability.
    Unfortunately, no amount of preparedness can prevent all fires from 
escaping to levels requiring extended fire suppression. When fires 
become large, the costs to contain them become large as well. The rise 
in the 10-year average recognizes the long-term trend in fire frequency 
and severity. Even so, even that increase falls below the costs of the 
past three years. We consider it prudent to maintain a funding level 
based on the 10-year average. Anything less would seem shortsighted 
given what we know today.
    I have directed the Regional Foresters to use funds for the purpose 
of attaining preparedness levels that are similar to fiscal year 2002. 
The following table displays a comparison of what we plan to provide in 
fiscal year 2003 versus 2003.

------------------------------------------------------------------------
                                          Fiscal year
          Resource type           --------------------------     2003
                                   2002 actual   2003 base     planned
------------------------------------------------------------------------
Firefighters.....................       10,480        6,008       10,480
Prevention Techs.................          403          296          332
Engines..........................          995          700        1,072
Forest Helicopters...............           75           57           87
National Helicopters.............            7            8            8
Smokejumpers.....................          277          277          277
Type I Crews.....................           65           65           65
Airtankers.......................           41           33           33
------------------------------------------------------------------------

    We have some concern about the loss of 11 large airtankers but feel 
we have several alternatives available to us that will mitigate the 
effect of losing this capability. In our 2003 Fire Operations planning 
we are instructing Incident Commanders to shift the emphasis of the 
airtanker fleet to initial attack rather than large fire support. We 
will shift suppression tactics from those that require close air 
support to those that do not require such close support (direct 
fireline construction versus more indirect). This may cause a marginal 
increase in total burned acres but not enough to be significant. We 
will add contract helicopters with aerial suppressant capability to 
help offset the loss of the airtankers. Finally, we will add as many as 
11 Single Engine Airtankers (SEATS) to help with local initial attack. 
In a normal year, these alternatives will allow us to effectively 
suppress wildland fire without compromising safety, burned acres, and 
program costs.
                              fire funding
    Question. In the past, there has been a fairly large gap between 
what the administration requests each year for firefighting activities 
and what the Congress eventually ends up having to appropriate. In the 
mean time, the Forest Service is frequently forced to borrow money 
until Congress and the President can agree to reimburse the agency for 
its actual costs. That is not the best way to operate. In fact, the 
Chief has been as suggesting the current system is ``absolutely 
crazy,'' and that what's needed is a long-term solution. I know the 
administration's request includes an additional $187 million for fire 
suppression, but even with that money, you could easily be $600 million 
short of what's actually needed. Nevertheless, as I read your prepared 
statement, and as I look at the administration's budget, I don't see a 
long-term fix proposed anywhere. Has the Forest Service actually 
proposed a solution to the Agriculture Department, or to the Office of 
Management and Budget? And if you have, would you please tell us what 
you proposed, and why that proposal hasn't been sent to the Congress 
for consideration?
    Answer. While the fiscal year 2004 proposed budget line item 
structure for suppression is the same as previous years, the methods 
used to calculate the suppression proposal is different from previous 
years. The fiscal year 2004 Budget proposes the 10-year average of 
total suppression costs adjusted for inflation, $604 million. As noted, 
this is $187 million more than the fiscal year 2003 enacted level and 
is also $129 million greater than what would have been required if the 
same method was used as in fiscal year 2003. The method used for fiscal 
year 2004 provides a more realistic amount that decreases the 
likelihood of having to transfer funds and should it be necessary to 
transfer funds, the amount would be substantially less.
    The Chief of the Forest Service has finalized direction for the 
fiscal year 2003 fire season. The USDA Forest Service Fire & Aviation 
Operations Action Plan (04/01/03) responds to lessons learned following 
the 2002 fire season, and focuses attention on four critical areas: 
preparedness, cost containment, hazardous fuels treatments, and 
safety--for both ground and aviation operations. A copy of the Action 
Plan is attached.
    The best long-term solution to reverse the increase in suppression 
costs and eliminate annual transfers is to return the forests to their 
natural fire regimes. The fiscal year 2004 Budget proposes the Healthy 
Forest Initiative for this very reason. It is a tool to implement 
effectively and efficiently core components of the National Fire Plan's 
10-Year Comprehensive Strategy and Implementation Plan. A century of 
well-intentioned but misguided management has interrupted the natural 
fire cycle and allowed forests to grow unnaturally dense. In addition, 
excessive analysis, ineffective public involvement and management 
inefficiencies have further delayed treatments to return our forest to 
their natural fire regime. The Healthy Forest Initiative includes 
legislative and administrative actions that provide the necessary tools 
to efficiently implement actions to return our forests back to their 
historic densities and natural fire cycles. Together with updated fire 
management plans and greater application of wildland fire use, 
implementation of the Healthy Forest Initiative is the solution to 
increase the health of our forest and the pro-active solution to 
decrease the likelihood of extraordinarily expensive fire seasons and 
funding transfers.
    In the interim, we must respectfully defer any discussion of pre-
decisional issues.
                              maintenance
    Question. The administration's request for the Capital Improvement 
and Maintenance account includes an increase of $14 million for Roads 
and $9 million for Trails, but completely eliminates the $46 million 
provided for Deferred Maintenance. Overall, the request cuts 
maintenance activities by 4.4 percent. I'm puzzled by these cuts 
because your budget documents clearly state that the deferred 
maintenance backlog is over $7.8 billion. Now, I understand the Forest 
Service has management problems with its maintenance program, but I 
don't understand, when you have such an obvious need, why you've chosen 
to cut back on deferred maintenance?
    Answer. Deferred maintenance is an important concern to the agency 
and we will continue to focus on addressing the deferred maintenance 
backlog through use of our existing appropriations. The authority to 
expend funds on deferred maintenance already exists within Capital 
Improvement and Maintenance budget line items, Facilities, Roads, and 
Trails, the Roads and Trails for States--10 Percent fund (Expenditure 
from Receipts Act of 1913), Operation and Maintenance of Quarters 
funds, and the Recreation Fee Demonstration Program funds.
    The Department has a number of facilities and appurtenant 
administrative land excess to agency needs. The fiscal year 2004 Budget 
contains a proposal for the establishment of a Facilities Acquisition 
and Enhancement Fund that would enable the Secretary to sell such units 
excess to need and to utilize proceeds from those sales for the 
acquisition or development of land and improvements for administrative 
purposes. Funds collected under this authority would address backlogs 
and administrative consolidations while improving efficiencies through 
the reconstruction of functionally obsolete facilities or construction 
of new facilities. To this end, the Department will submit proposed 
legislation concerning this Fund in the upcoming weeks.
                      leafy spurge--noxious weeds
    Question. I'm very concerned with the noxious weed problem in North 
Dakota. My constituents who live near the Sheyenne National Grasslands 
in the southeastern part of my state and those who live near the 
Missouri National Grasslands in the western part have complained 
bitterly to me that the Forest Service has not been a good steward of 
the land. In particular, I'm talking about the spread of Leafy Spurge, 
which, by your own agency's account, has infested somewhere between 
30,000 and 35,000 acres of the Missouri Grasslands. That's more than a 
quarter of that land. For the past two years, I've had funds earmarked 
for leafy spurge management on the Dakota Prairie Grasslands; $200,000 
in fiscal year 2002 and $300,000 in fiscal year 2003. Unfortunately, 
because I've received conflicting reports, I don't have a great deal of 
confidence that the $200,000 provided in fiscal year 2002 was used as 
Congress intended; that is, as an addition to what was otherwise 
provided, not $200,000 total. I want to make sure that that does not 
happen again, Chief, and so my question to you is what assurances can 
you give me and the people of North Dakota that the fiscal year 2003 
funding will be used for additional weed control programs?
    Answer. Interagency and interdepartmental efforts have attempted to 
address the leafy spurge, one of the most insidious invasive noxious 
weed species, using a host of integrated management approaches that 
rely on strong partnerships between local, state, tribal, and national 
groups. The Dakota Prairie Grasslands (DPG) is an important leader in 
addressing the leafy spurge infestations in North Dakota, particularly 
with respect to infestations on the National Grasslands. The DPG has 
undertaken a comprehensive and collaborative program to fight leafy 
spurge infestations. This program relies on partnerships with local 
landowners, state and county governments, grazing associations, and 
other federal agencies. These partnerships are proving to be the most 
effective in fighting leafy spurge on public and private lands. The DPG 
has met often with local congressional staffs and county weed boards, 
other federal and state agencies and grazing association officers to 
plan a landscape-scale approach to the problem, and has developed 
cooperative agreements with the North Dakota Agriculture Department and 
several grazing associations for on-the-ground leafy spurge management 
operations.
    The Forest Service appropriations in fiscal year 2003 contained an 
unrequested $300,000 Congressional earmark for leafy spurge control. 
Our efforts will focus upon slowing infestations across the Dakota 
Prairie Grasslands and adjacent state and private property. A component 
of the approach provides about $100,000 directly to the North Dakota 
Agriculture Department to assist the County Weed Boards, in counties 
where National Grasslands are located, for leafy spurge control 
operations on those National Grasslands and other nearby critical 
locations that threaten to spread to Forest Service lands. This program 
is augmented by roughly a 20 percent voluntary contribution from the 
non-federal partners to the projects. This non-federal contribution 
allows for the implementation of the Wyden Amendment for cooperative 
treatment of noxious weeds on both public and adjacent private property 
in Weed Management Areas. The cost share amount is based on the 
percentage of land ownership within these Weed Management Areas 
(private vs. federal or 20 percent and 80 percent).
    The DPG is also leading cooperative treatment efforts with the 
grazing associations, including McKenzie County Grazing Association, 
Little Missouri Grazing Association, Horse Creek Grazing Association, 
and Sheyenne Valley Grazing Association, in leafy spurge management 
activities on National Grasslands. This effort will have the added 
benefit of 20 percent supplemental funding from the non-federal 
partners. The Dakota Prairie Grasslands will utilize about $180,000 of 
the fiscal year 2003 appropriations to support these partnerships.
    With the balance ($20,000) of the fiscal year 2003 leafy spurge 
earmark, the DPG will hire a four-person seasonal management crew for 
treatment of leafy spurge in critical locations on the Dakota Prairie 
Grasslands with emphasis on biological control (Flea beetles). None of 
the earmark will fund permanent employees, overhead expenses, or other 
Forest Service operational costs. Many of the seasonal workers are from 
local colleges and high schools and work for the Forest Service during 
the summer.
    All participating partners will record treatment and inventory 
activities utilizing global positioning system (GPS) equipment. Field 
data reporting, at minimum, will follow protocol required by North 
Dakota Department of Agriculture. The consolidation of field data will 
be coordinated between the USDA FS and ND Department of Agriculture for 
official records, mapping, and future planning and management.
                       grasslands management plan
    Question. What is the status of the Scientific Review Team that is 
reviewing and analyzing the 64 Allotment management Plans per the 
Record of Decision on the Grasslands Management Plan?
    Answer. Regional Forester Brad Powell selected the Scientific 
Review Team (SRT) after consultation with North Dakota Governor John 
Hoeven. The SRT is comprised of Dr. Rod Heitschmidt, UDSA--Agricultural 
Research Service; Dr. Kevin Sedivec, NDSU Animal and Range Science 
Department; Jeff Printz, USDA--Natural Resources Conservation Service; 
Dr. Douglas Johnson, USGS--Northern Prairie Wildlife Research Center; 
Karen Smith, U.S. Fish and Wildlife Services; Kent Luttswagger, North 
Dakota Game and Fish Department; Dr. Harvey Peterson, Golden Valley 
County Extension Agent; and Dr. Don Kirby, NDSU Animal and Range 
Science Department.
    The first meeting of the SRT, held on February 10, 2003, was 
designed to provide team members with information that they would need 
to perform their role as defined in the Record of Decision for the 
Dakota Prairie Grasslands (DPG) Plan. Their delineated role is ``. . . 
to determine if the grazing portion of the plan can be implemented and 
to verify that grazing levels are similar to those projected in the 
Revised Grasslands Plan FEIS . . .'' (Record of Decision DPG Plan page 
5). The information presented to the SRT included Record of Decision, 
Dakota Prairie Grasslands Plan, Northern Great Plains Final 
Environmental Impact Statement, SRT Handbook and SRT Draft Charter.
    The second SRT meeting was on April 15, 2003. At this meeting, the 
Dakota Prairie Grasslands staff presented information to the SRT for 
the Little Missouri National Grasslands Assessment and the first set of 
eight allotment management plans (AMPs). The information provided 
included background information for these allotments. Public notice for 
these meetings resulted in well attended sessions by those interested 
in the process. The next meeting, scheduled for June 16-18, will 
include a field trip to those allotments where plan development is 
occurring.
                 lewis & clark bicentennial activities
    Question. I'm a big supporter of the Lewis and Clark Bicentennial 
and I'm looking forward to helping the various bicentennial 
celebrations. I know the Forest Service is an important federal partner 
in this endeavor, and I'm interested in knowing how your budget 
supports the Lewis and Clark Bicentennial. I know, for example, that 
there were plans to build an overlook and trail at Tobacco Gardens, in 
North Dakota, where Cruzat shot Merewether Lewis on August 11, 1806. It 
is my understanding that construction was scheduled to begin in 2003. 
Is that project still on schedule? And could you also tell us what the 
Forest Service is doing nationally to commemorate the bicentennial?
    Answer. Forest Service field units, especially those in close 
proximity to the Lewis and Clark National Historic Trail (LCNHT), 
continue to dedicate funding to accomplish the critical work to meet 
the agency's commitment to the Lewis and Clark Bicentennial 
Commemoration. Where possible, the Forest Service provides funding, 
technical assistance, or other in-kind assistance to mutually agreed to 
interagency projects. Four Regions have specific funding allocated for 
National Scenic and Historic Trails, with portions of the LCNHT, have 
an estimated $66,000 available for trail management. Since 1999, the 
Forest Service has granted over a $1.5 million to 27 state and 
community Lewis and Clark Bicentennial projects. Over the past few 
couple year, under the agency's constrained budget, about $3 million 
has been allocated annually to Bicentennial activities, including the 
grants to state and community projects. The Dakota Prairies National 
Grassland has also worked in partnership with the Three Affiliated 
Tribes to provide interpretive programs to school children and as well 
as contributed funding to the North Dakota State Historic Museum for 
the development of a L&C Trail Travel Kit for North Dakota.
    The overlook and interpretive signs for Tobacco Gardens are 
currently under construction. Construction for the connecting trail 
will be accomplished in 2004.
    Nationally, the Forest Service has been working in partnership with 
the National Bicentennial Council, the Trail Heritage Foundation, 
federal interagency Memorandum of Understanding working group, and 
Tribes to ensure protection and interpretation of the historic trail, 
and to provide a coordinated effort for the Bicentennial.
    The Forest Service created a national exhibit that was displayed at 
the first signature event, at Monticello in January 2003. The Forest 
Service is currently planning participation in the Signature Events at 
the Falls of the Ohio, Louisville, KY and Clarksville, IN and in the 
Big Sky Festival in Great Falls Montana. Plans to participate in other 
Signature Events, such as in North Dakota, are evolving. The Forest 
Service is committed to our partnership with the National Park Service 
for Corps II, a traveling educational exhibit, and has designated an 
agency employee to be the liaison to the Corp II effort. Several Forest 
Service employees participated in giving presentations in the Tent of 
Many Voices at Monticello and on the National Mall.
    Question. The bicentennial will also offer the Forest Service the 
opportunity to highlight recreational opportunities that are a bit off 
the Lewis and Clark Trail. The Forest Service has developed the Maah 
Daah Hey Trail, which allows for hiking and biking through the Dakota 
Badlands. With increased tourism expected during the upcoming Lewis and 
Clark Bicentennial, what is the Forest Service doing to promote the 
Maah Daah Hey Trail and other recreational activities it offers in 
North Dakota?
    Answer. The Maah Daah Hey Trail has recently been designated a 
National Recreation Trail and will be formally dedicated on National 
Trails Day, June 7, 2003. The Maah Daah Hey Trail has also been an 
International Mountain Bicycling Association (IMBA) Epic Ride and 
remains listed on the IMBA website (http://www.imba.com). The Dakota 
Prairie Grasslands has developed brochures and maps about the Maah Daah 
Hey Trail as part of its public outreach effort. The Dakota Prairie 
National Grassland also has plans to develop and protect additional 
interpretive sites that commemorate other historical events that took 
place in North Dakota, in particular Custer's Initial Rock and other 
military history of that era.
    There are several other venues for the public to receive 
information on recreation opportunities on the Dakota Prairie 
Grasslands. Medora is the focus of a major advertising campaign by 
North Dakota Tourism, which is being marketed nationally and 
internationally in major magazines and other tourism literature. The 
campaign includes information about the 96-mile long Maah Daah Hey 
Trail. Locally, informational kiosks display information on 
recreational opportunities and special events are publicized in the 
newspaper. Dakota Prairie Grasslands staff also provide information to 
the public both in person and over the phone. North Dakota recreational 
activities in the national grasslands are also available via the 
internet, and is maintained at the Forest Service website (http://
www.fs.fed.us/r1/dakotaprairie/) and through the interagency recreation 
website (http://www.recreation.gov).
                              grass banks
    Question. Federal rangeland management is often made difficult 
during times of drought or other hardship. Already stressed ranchers 
experience shrinking resources. The Forest Service has the ability to 
work with local ranchers to establish alternative grazing ``grass 
banks'' and swing pastures to help during these hard times. What has 
the Forest Service done to promote the development of such tools?
    Answer. The Forest Service actively seeks alternatives to provide 
for rest and rehabilitation of specifically identified rangelands. The 
term ``grassbanks'' is a registered trademark of the Malpais 
Borderlands Group, therefore the Agency prefers to use the term 
``forage reserves'' when referring to this concept in a generic sense. 
One way the Forest Service is looking at establishing forage reserves 
is through acquisition of private land within the grasslands where the 
landowners want to sell to the federal government. If the Forest 
Service acquires these lands, both the acquired private land and the 
associated federal allotments could be included in a forage reserves 
allotment.
    The Dakota Prairie Grasslands (DPG) is also a cooperating agency 
with the National Park Service on their environmental analysis to 
acquire the Ebert land located in the vicinity of the Elkhorn Ranch 
within the Little Missouri National Grassland. Much of the work with 
the Park Service has entailed looking at how this project can achieve 
the best land ownership pattern for the National Park Service, the 
Dakota Prairie Grasslands, and the involved private landowners. If the 
Park Service acquires the Ebert Ranch, the DPG would be interested in 
establishing a forage reserve on the associated allotment in 
cooperation with the Medora Grazing Association.
    Under the current grazing agreements, the grazing associations have 
the authority to work with the district rangers to establish pastures 
which can serve as forage reserves or swing pastures, although at this 
point no action has taken place. Members of the grazing associations 
have often applied for and received approval for voluntary nonuse. 
However, rather than promoting the establishment of forage reserves or 
swing pastures in these areas, the associations have allowed others to 
use these nonuse pastures with their livestock on an annual basis.
    Dakota Prairie Grasslands (DPG) Supervisor is currently working 
with the Partners for Grasslands Stewardship to develop forage reserve 
allotments or pastures within existing allotments. The DPG program has 
explored opportunities such as land exchanges, land purchase (willing 
seller) and grazing system changes, to provide some of the flexibility 
needed by the ranching industry and to improve resource conditions. The 
Partners for Grasslands Stewardship includes several ranchers and local 
community leaders. One of their efforts has been to develop a better 
understanding and acceptance of forage reserves concepts and 
opportunities.
                  sheyenne valley grazing association
    Question. The Sheyenne Valley Grazing Association's 10-year Grazing 
Agreement expires on March 23. Unless a new agreement is signed, or an 
extension granted, grazing will stop on these lands. The Forest Service 
is negotiating a new 10-year agreement with the Association, but the 
Association has raised several concerns. I've sent a letter to Mark 
Rey, the Natural Resources Under Secretary, spelling out these 
concerns, and asking for his cooperation in ensuring that the Forest 
Service continues to negotiate in good faith. In the meantime, I am 
concerned that, after March 23, grazing could come to a halt without a 
new agreement. That would be disastrous. Chief, I understand that you 
have the authority to extend the agreement for 2 or 3 months at a time 
as long as negotiations are continuing. I believe that would be in the 
best interests of all concerned. Can I have your assurance that that 
will happen?
    Answer. Grasslands Supervisor Dave Pieper sent a letter to Senator 
Dorgan's office on March 10, 2003 detailing the actions that have taken 
place and discussions with your Legislative Assistant LaDeene Freimuth. 
The Dakota Prairie Grassland is continuing to work with the Sheyenne 
Valley Grazing Association (SVGA) to renew this Grazing Agreement. In 
the letter, Supervisor Pieper said he was ``hopeful that a new grazing 
agreement will be developed and signed by the expiration date.'' He 
also included the following paragraph of assurance:

    ``In the event a new agreement is not signed by the expiration 
date, I will roll over the existing agreement for periods of three or 
more months until a new agreement is signed. This will allow permitted 
livestock grazing to continue unimpeded. I want to assure you that 
development of the new SVGA grazing agreement will be a cooperative 
effort between the Association and the Dakota Prairie Grasslands.''

    Supervisor Piper has tracked this process and has recently issued a 
letter officially extending the existing Grazing Agreement until July 
1, 2003, while development of a new formal grazing agreement is 
continued.
                                 ______
                                 
           Questions Submitted by Senator Ernest F. Hollings
    Question. The Forest Service is requiring states to identify 
potential tracts of land for acquisition up to two years in advance. It 
has also indicated a preference for identifying individual tracts 
instead of focusing on a strategy that emphasizes corridor area 
protection, a strategy that has proved very effective in South 
Carolina. The ACE Basin river corridor in South Carolina is a great 
example of success regarding this type of approach to land acquisition. 
Why has the Forest Service pushed for such early identification of 
potential land acquisitions? Why has the Forest Service chosen to push 
the identification of individual tracts of land as opposed to 
concentrating on corridor areas, specifically river corridor areas?
    Answer. The federal acquisition process, as defined by laws, rules, 
regulations, and policy, and being subject to the annual appropriations 
process, makes purchasing a tract of land by the Forest Service much 
more complex and time consuming than occurs between two private 
individuals. In addition, much lead-time is required in order to get a 
project in the President's annual budget request to Congress.
    Some of these requirements involve the Uniform Relocation 
Assistance and Real Property Acquisition Policies Act of 1970 (Public 
Law 91-646) and the appraisal process, which can take from 6 to 8 
months to contract for, produce an approvable report, and then complete 
agency review. Title issues, clearing of liens, surveys, hazmat 
investigation requirements, laws dealing with relocation assistance, 
negotiations, the phasing of projects, Congressional oversight, and 
specific requirements found in various appropriate authorizing 
legislation can all add to the time factor in processing a case.
    The annual appropriations process begins with the individual 
forests submitting their priority projects to the regions and then to 
the Washington Office during the summer before the President's next 
year's budget is submitted to Congress. Forests cannot know what lands 
are available for purchase until much of the preliminary work mentioned 
above is completed.
    The Forest Service is aware of and frequently uses the approach of 
``focusing on a strategy that emphasizes corridor area protection'', 
which the Senator suggests in his letter. That approach has been used 
successfully over the past 11 years on the Chattooga Wild and Scenic 
River Corridor, which involves Georgia, North Carolina, and South 
Carolina. Emphasis has been placed on acquiring high priority tracts 
located within those river corridor boundaries. We are currently 
working with The Conservation Fund for the definition of a corridor for 
the new Broad River acquisition program in South Carolina in order that 
our acquisition program there will be the most effective. We have 
frequently used defined corridor planning to focus our acquisition 
efforts in various wilderness areas, other congressionally authorized 
areas such as National Recreation Areas including the Sawtooth; the 
Columbia River Gorge; the Florida National Scenic Trail; and since 1978 
on the Appalachian National Scenic Trail.
    Question. Can you outline for me the guidelines the Forest Service 
follows in identifying and ranking projects selected in the Forest 
Legacy program? Why do different regions follow different guidelines? 
Why does the Forest Service insert itself so heavily into the selection 
process? Why have lead agencies in our states not been intensively 
involved in drafting new guidelines or been involved more heavily in 
the selection process?
    Answer. The Forest Legacy Program operates under program 
implementation guidelines adopted in 1996. These guidelines are 
currently under review and are in the process of revision. The final 
revision will be released this year and is being amended to respond to 
program growth since 1996, findings expressed in the House of 
Representatives Committee on Appropriations investigation report 
released in June 2002 and to meet fiscal year 2003 congressional 
direction on specific items to be included in the revision.
    In keeping with the direction described in the above answer, the 
Forest Service engages in a project selection process that is 
articulated as direction to Forest Service Regional Foresters, Area and 
International Institute for Tropical Forestry Directors and State and 
Private Forestry Directors and Program Managers that includes a 
calendar of milestones and due dates. This is a five-step process that 
begins with submissions of project priorities from each participating 
State; receives Forest Service Regional input; undergoes a national 
review team process in which projects are scored using national 
criteria and selected for recommendation in a prioritized list; and are 
then submitted to the Office of Management and Budget for inclusion in 
the President's Budget.
    The Forest Service conducts this project selection process to 
comply with Congressional and Administration direction and to perform 
its oversight responsibilities to deliver this national program. Forest 
Service regions are allowed flexibility to develop mechanisms to assess 
and to recommend projects for selection. They must utilize the national 
criteria and provide information and input on individual projects to 
inform that process. The foundation for the entire project selection 
process is the process that participating State Lead Agencies perform 
with their State Forest Stewardship Coordinating Committees to review, 
approve and rank projects in their State. Only projects that are 
determined by the State-based process as priorities are considered for 
funding and recommended by the Forest Service.
    The Forest Legacy Program Implementation Guidelines revision has 
been conducted through a State lead agency--Forest Service Team. The 
revision began in 2000 and has undergone numerous drafting rounds and 
open comment periods with input received from hundreds of groups and 
agency personnel from across the country. The Guidelines Revision Team 
is composed of nine members from State lead agencies and the Forest 
Service. Drafts of the guidelines have been presented at national 
meetings and for review with State program managers from all 
participating States.
    Question. The regulations employed by the Forest Service for land 
appraisal in the states is overburdening. The process is inconsistent, 
especially with respect to projects in the Forest Legacy program. In a 
time of tight budgets and huge deficits, it is unwise to require 2 or 3 
appraisals by certified appraisers at a high cost to the taxpayer. 
There has been more emphasis placed on the method of appraisals as 
opposed to the value of the land. What has the Forest Service done to 
improve and streamline this process? Why is it taking multiple 
appraisals in order to get Forest Service approval for new land 
acquisitions? Do I need to ask for a GAO review of the appraisal 
process to determine where the problem is?
    Answer. The House Appropriations Committee reviewed the Forest 
Service Legacy Program and issued a report in June 2002. Among the 
findings of that investigation report were several related to appraisal 
and appraisal review. The report cited the requirement that Federal 
payments to landowners not exceed the market value of the property and 
that appraisals prepared to determine market value must be prepared in 
conformance with the Uniform Appraisal Standards for Federal Land 
Acquisitions. Many appraisals approved by States were later found not 
to comply with Federal appraisal standards and, in many cases, the 
value estimates were not supported.
    There are several reasons for a large number of unapproved 
appraisal reports. Federal oversight of the program was found to be 
inconsistent and States have hired appraisers and review appraisers not 
qualified to perform the appraisal and review assignments. States have 
been reluctant to impose uniform qualifications requirements for 
appraisers and review appraisers. Federal reviews of those appraisals 
in compliance with Forest Service oversight requirements have too often 
discovered these deficiencies after the fact. It often requires 
multiple appraisals to effect an acquisition when appraisers or 
reviewers are hired that are not qualified or who cannot support their 
value estimates.
    In an effort to streamline the appraisal process and help ensure 
more effective use of public funds, the Forest Service is working with 
the States to involve the assigned review appraiser early in the 
acquisition process to help obviate later unpleasant surprises. The 
Forest Service is also working with the States to adopt standard 
implementation guidelines for appraisal and appraisal review. There are 
both industry and Federal appraisal standards that must be applied when 
public funds are expended. Appraisal reports failing to comply with 
those standards cannot be approved.
    The Forest Service valuation function has been investigated and 
reviewed by GAO, the U.S. Department of Agriculture Office of the 
Inspector General (OIG), The Appraisal Foundation (TAF), and the 
aforementioned House Appropriations Committee. The Forest Service has 
made substantial changes in policy the past few years to comply with 
recommendations of those investigations and reviews.
    In the Federal appraisal community, the Forest Service is now 
regarded as a yardstick by which other agencies measure their valuation 
function. For example, TAF also reviewed the Bureau of Land Management, 
Department of Interior, and issued a report in October 2002. That 
report recommended massive changes to the way BLM does its appraisal 
business and how it is organized. The Forest Service has been requested 
to assist the BLM in implementing some recommendations of TAF report, 
as well as OIG and GAO reviews and audits dating back to 1987. The 
Appraisal Work Group chartered by BLM has relied upon ``the Forest 
Service model'' for several appraisal organization recommendations. The 
Chief Appraiser, Department of Justice, recently reported that he has 
fewer litigation and standards compliance problems with Forest Service 
than any other agency with which he routinely works.
                                 ______
                                 
    USDA Forest Service--Fire & Aviation Operations Action Plan 2003

                          [Finalized 04/01/03]

                              introduction
    This plan establishes Chief's direction for the 2003 fire season. 
It responds to lessons learned, after-action assessments, and formal 
reviews following the 2002 fire season. It incorporates recommendations 
from the Line Officer's Team and Chief's taskings dealing with cost 
containment (Troyer-Mann Report and Cost Accountability Report). The 
plan is consistent with the 30-Mile Mitigation Plan, the 10-Year 
Comprehensive Plan and the National Fire Plan. This direction 
introduces operational expectations and clarifies existing policies and 
procedures. It reinforces performance expectations for Forest Service 
Line Officers and Fire & Aviation Management personnel.
    The plan focuses attention on four areas:
  --Preparedness
  --Cost containment
  --Hazardous fuel treatments
  --Safety--ground and aviation operations
    This plan is responsive to Administration goals of fiscal integrity 
and the Chief's goals to deliver a safe, effective Fire & Aviation 
Management program. It recognizes that large air tanker capacity is 
down from previous years and several cooperator programs are also below 
last year's levels.
    The direction established in this plan reflect important 
performance measures for Line Officers, Incident--Area Command Teams, 
and fire management personnel in the conduct of operations.
    Finally, this plan recognizes that, because of Forest Service 
capability and experience with emergency response, the agency will 
continue to be asked to respond to incidents beyond the normal scope of 
business. The Forest Service is prepared to support missions that 
assist others in need, with focus on assisting others to build their 
capacity to respond. Management options for handling future all-risk 
workloads must be defined. In this context, the following priorities 
will guide the commitment of resources:
    1. National security
    2. Protection of life
    3. Protection of property
    4. Protection of natural resources
                               background
    During the fire season of 2002, initial attack forces displayed 
remarkable success under extreme burning conditions by containing over 
98 percent of all starts before they could become large fires. The 
fires that escaped initial or extended attack actions resulted in 
extraordinary costs, losses, and damages. Fires that grew above 300 
acres accounted for over 95 percent of the total acres burned and 
nearly 85 percent of all suppression expenditures. Wildfires on 
National Forest System lands burned over 1.4 million acres or over 
twice the 10-year average. Suppression expenditures were $1.2 billion; 
again twice the 10-year average.
    Fireline operations were relatively safe, given the level of 
exposure. Vehicle accidents and aircraft accidents, however, exceeded 
past levels and accounted for 69 percent of all wildland fire-related 
fatalities in 2002.
                         situational assessment
    Wildland Fire Outlook--March through August 2003. National and 
Geographic Predictive Service groups, climatologists, fuels specialists 
and fire behavior analysts convened for a seasonal assessment workshop 
in Mesa, Arizona during the week of February 24-28, 2003. Based on the 
analysis shared and assessments completed, it was determined that 
nationally, the 2003 fire season will not be as severe as 2002 
(seasonal assessment http://www.nifc.gov). However, much of the 
interior West, south/central Alaska, western Great Lakes and northern 
Maine is expected to experience an above normal fire season for the 
following reasons:
  --Long-term drought persists over much of the interior West with 
        mountain snowpack and winter precipitation remaining below 
        average to date.
  --Drought stressed and/or insect damaged vegetation is becoming more 
        prevalent across the western states and will increase the 
        potential for large, destructive wildfires at mid to high 
        elevations.
  --Drought conditions are emerging in the Great Lake States leaving 
        herbaceous fuels standing, uncompressed, and receptive to 
        ignition. An early fire season is anticipated with peat fires 
        in these areas being problematic due to dry conditions.
  --Early snow melt is anticipated for Alaska, Pacific Northwest, Great 
        Basin and Northeastern California which will cause large dead/
        downed fuel moistures to drop below critical values earlier 
        than normal in the higher elevation areas, resulting in an 
        early and extended fire season.
  --The Southern Area is expecting a below normal spring fire season 
        overall, however forecasts call for a very active tropical 
        storm season which could result in an above average number of 
        hurricanes that impact the area and diminish fire risk through 
        the summer months.
  --An early spring prescribed fire season is expected across many 
        western states.
  --State budget reductions are likely to result in reduced 
        firefighting capacity from our State and local cooperators.
    Unless weather patterns provide relief, 2003 has the potential for 
an above normal fire season with several areas experiencing significant 
wildfire activity simultaneously. In some parts of the country, fire 
season potential will likely be higher, as the result of several years 
of drought. Of particular significance is the potential for long-
duration fires in higher elevation timber types in much of the interior 
West. Fires occurring in these types often prove to be difficult to 
suppress and very labor intensive. Historically, in the Northern 
Rockies and higher elevation sites elsewhere in the interior West, 
exponential acreage growth typically occurs very late in the season, as 
high velocity winds blow out unsecured perimeters.
                              preparedness
    Policy.--``Agencies will ensure their capability to provide safe, 
cost effective fire management programs in support of land and resource 
management plans through appropriate planning, staffing, training, 
equipment, and management oversight.''
    Principle.--Where hazardous fuels dominate the landscape, 
establishing a strong, decisive initial attack capability is a key 
component in minimizing large fire suppression costs. As fire danger 
levels increase and suppression resources become scarce, initial attack 
capacity must be maintained as the most certain means of preventing new 
costly wildfires.
    Chief's Intent.--Extended attack and initial attack operations will 
be the number one mobilization priority. All efforts will be made to 
utilize predictive services, anticipate threats, and pre-position 
protection resources.
    At National Planning Levels Four and Five, national shared 
resources (airtankers, hotshot crews, smokejumpers, etc.) will be 
allocated and re-allocated by National Multi-agency Coordination Group 
(NMAC), based on observed and predicted fire danger intelligence.
    All units will be trained, staffed and ready to meet operational 
demands. Staffing levels will be adjusted, based on observed and 
predicted fire danger in order to maintain protection capabilities. 
Staffing levels will be coordinated with adjacent cooperators.
    Personnel will be trained, qualified, and red-carded for the 
positions that they are assigned. Forest Service employees will be 
available to support fire emergencies to the best of their ability and 
capability.
    Objective.--All level units will be staffed at the identical 2002 
level. We are currently working with OMB to achieve this goal. (95 
percent of planned NFMAS capability). A 98 percent initial/extended 
attack success rate remains our goal in 2003.
Chief's Direction
  --Fire Management Plans will be updated utilizing the new interagency 
        template (All plans must meet this new requirement no later 
        than December, 2004).
  --Effective organizational capability will be sustained by 
        maintaining management, supervisory, and crew staffing skills. 
        Coaches or mentors will be pre-identified for support, where 
        they may be needed.
  --Managers will assure personnel assigned to full duty will be 
        appropriately trained and physically fit prior to their 
        deployment.
  --Staffing levels and drawdown plans will be adjusted, based on 
        observed and predicted fire danger. Severity funding requests 
        will be submitted and approved prior to the pay period for 
        which they are planned. Severity requests will be coordinated 
        with cooperators to most effectively maintain management 
        oversight, supervisory controls, and crew capabilities in the 
        critical area.
  --Units will be prepared to hire and train AD employees and local/
        volunteer fire department personnel to meet local and, as 
        appropriate, national needs. Training and availability of State 
        and local fire departments, including volunteers, will be 
        coordinated.
  --Preparedness Plans, Mutual Threat Plans, Memorandums of 
        Understanding, Cost Share Agreements, and other plans will be 
        reviewed and updated prior to fire season.
  --Multi-agency Coordinating Group (MAC) members will be pre-
        identified and Predictive Services support will be ready prior 
        to the start of fire season. MAC Groups should include 
        individuals with coordination and command experience. Prior to 
        fire season, MAC Groups will establish prioritization criteria 
        for incident allocation and re-allocation of resources. Line 
        Officers will provide a formal Delegation of Authority to MAC 
        Groups that include agency objectives and agency expectations. 
        Prioritization criteria will be included in the Delegation of 
        Authority.
  --Service and Supply Plans will be completed and associated Emergency 
        Equipment Rental Agreements (EERA) will be in place prior to 
        fire season.
  --Pre-season simulations, including Wildland Fire Situation Analysis 
        (WFSA) development, will be conducted on units.
                            cost containment
    Policy.--``Fires are suppressed at minimum cost, considering 
firefighter and public safety, benefits, and values to be protected, 
consistent with resource objectives.''
    Principle.--Line Officer oversight and involvement during the 
decision-making process is critical for containing suppression costs.
    Chief's Intent.--In terms of implementation, this means that the 
primary criteria for choosing suppression strategies are to minimize 
costs without compromising safety. Planned and actual suppression costs 
must also be commensurate with the values to be protected. They must be 
included and displayed in the Wildland Fire Situation Analysis (WFSA).
    Under no circumstances are suppression strategies to be tailored to 
achieve resource benefit. Even though resource benefits may result in 
some areas of the fires, it is inappropriate to expend suppression 
dollars with the explicit objective of achieving resource benefits.
    Indirect suppression strategies (containing to natural barriers, 
etc.) are appropriate only if they are the safest or least cost option. 
When fire danger trends are rising, the selection of these strategies 
must be carefully scrutinized because escape potentials are greater. 
Long-duration, ``siege-like'' wildfires where high numbers of 
firefighting resources are being committed, need to be closely 
evaluated by standing cost containment teams to ensure that operations 
are not occurring beyond the point of diminishing returns.
    Objective.--Expend only those funds required for the safe, cost-
effective suppression of the incident.
Chief's Direction
  --Line Officers are responsible for financial oversight. This 
        responsibility cannot be delegated.
  --Formulate two inter-agency Standing Suppression Cost Review Teams. 
        Teams will be established by April 15.
  --When fire danger trends are rising, the long-term consequences of 
        indirect containment strategies, including final fire cost, 
        will be considered in the initial action decision.
  --The WFSA will include the least-suppression cost option. This 
        option will serve as a way to describe the values to be 
        protected and the context surrounding a suppression decision. 
        If the least-suppression cost option is not chosen, the WFSA 
        will include written rationale for not choosing it.
  --A suppression cost objective will be included as an incident 
        objective and included in the Delegation of Authority to the 
        Incident Commander. These cost objectives must maintain safety 
        considerations and be commensurate with the values to be 
        protected Revision of the WFSA is required if incident cost 
        objectives are exceeded.
  --Incident suppression cost objectives will be included as a 
        performance measure in Incident Management Team evaluations.
  --Suppression costs over $2 million will require approval of the 
        Forest Supervisor.
  --Suppression costs over $10 million require Regional Forester 
        approval and costs exceeding $50 million will require Chief's 
        Office approval. It is understood that, in approving 
        suppression costs, decision-makers at the higher organizational 
        levels share the risks associated with outcomes.
  --All incidents projected to exceed $5 million will require assigning 
        an Incident Business Advisor. The Incident Business Advisor 
        reports directly to the responsible Line Officer/Agency 
        Administrator.
  --Wildfires involving multiple jurisdictions should require mutually 
        agreed-upon Unified Commands. Commands should be unified as 
        early in the incident as possible. The rapid exchange of 
        information and coordinated tactics are a safety precaution, 
        first, and a cost containment protocol, second. Cost 
        apportionments will be based on mutually agreed upon criteria 
        and reflected in the Delegation of Authority from Agency 
        Administrators.
                       hazardous fuel treatments
    Policy.--Hazardous fuels are treated, using appropriate tools, to 
reduce the risk of unplanned and unwanted wildland fire to communities 
and the environment.
    Principle.--The most effective means of reducing large fire 
suppression costs, protecting community values, restoring forest and 
grassland health, and improving firefighter safety, is an aggressive 
fuel treatment program. Treatments are particularly important in fire-
dependent ecosystems, where prolonged fire exclusion has resulted in 
over-accumulated fuels. The Forest Service will continue to emphasize 
fuel treatments in high priority areas where communities, watersheds, 
and critical resources are at risk.
    Chief's Intent.--The President's Healthy Forest Initiative, the 10-
Year Comprehensive Strategy and the National Fire plan establish goals 
for reducing hazardous fuels. Reducing risk to our firefighters, 
communities, municipal watersheds and restoring the health of our 
forests and rangelands are the central themes of these initiatives.
    The safest, most effective wildfire protection strategy is 
predicated on an aggressive fuels reduction program. In fire-dependent 
ecosystems, the use of prescribed fire, at ecologically appropriate 
intensities is an essential means of restoring forest health 
conditions. In Fire Regime I, Condition Class 3 forests, hazard 
mitigation treatments may often be required before prescribed fire 
projects can go forward within acceptable limits of social, economic, 
and ecological risk.
    Prescribed fires and wildland fires that aim to achieve resource 
benefits must be accompanied by supporting NEPA compliant plans.
    Objective.--Treat 1.6 million acres of hazardous fuels, service-
wide.
Chief's Direction
  --A high priority will be given to achieving fuels treatment projects 
        through the fire season.
  --Re-distribution of targets and funds between Regions may occur in 
        order to maximize project accomplishments, service-wide.
  --Identification on fiscal year 2004 hazardous fuels projects will be 
        completed by May 1, 2003 (reference FSM 5100 letter, dated 
        January 14, 2003, ``fiscal year 2004 Fuel Treatment Program 
        Priorities'').
                 safety--ground and aviation operations
    Policy.--``Firefighter safety is the first priority.'' Fight fire 
aggressively, but provide for safety first!
Principles
  --Firefighter safety comes first on every fire every time.
  --The 10-Standard Firefighting Orders are firm; we don't break them, 
        we don't bend them.
  --Every firefighter has the right to a safe assignment.
  --Every Line Officer, every Fire Manager, every fireline supervisor, 
        and every firefighter is responsible to ensure that established 
        safe practices are known and observed.
    Chief's Intent.--Safety will not be compromised in the conduct of 
ground or air operations. However, safety decisions must be made in the 
context of probabilities, exposure, and consequence over the long-term, 
particularly as fire danger trends are rising. The selection of 
indirect containment strategies must be weighed against longer-term 
safety concerns that may result if the fire exceeds expected or planned 
perimeters. Likewise, nighttime operations that mitigate snags and 
other hazards may be the safer tactic when weighed against fire 
behavior dangers that often exist during active burning periods. When 
seasonal fire danger trends are rising, the small wildland fire kept 
small is generally the safer fire.
    Proactive suppression tactics that can mitigate hazards and provide 
an operational advantage are favored over reactive or passive tactics 
that increase exposure to the firefighters over time. We all have a 
role in safety. In pre-season preparedness meetings, take the time to 
discuss the responsibilities and expectations that surround 
firefighting safety.
    Objective.--Observe established safe practices on every fire this 
year.
Chief's Direction
  --Continue the implementation of the Thirty mile Hazard Abatement 
        Plan on all units.
  --Unit preparedness--at management oversight, supervisory control, 
        and crew levels--will be commensurate with observed and 
        predicted fire danger.
  --Managers and supervisors will be in compliance with the National 
        Wildland Coordinating Group (NWCG) work rest guidelines (2003 
        National Interagency Mobilization Guide).
  --Appropriate span of control will be maintained for managers, 
        supervisors, and firefighters at a ratio commensurate to the 
        complexities presented by the fireline operations at hand.
  --Define control objectives (e.g. road, river, fuel type break, or 
        other perimeter objective) on every initial attack incident. 
        When control objectives are exceeded, immediately delay, 
        modify, or abandon any firefighting action. Fireline 
        Supervisors will assess the new situation, brief the 
        firefighters on strategy/tactical change, and then implement 
        appropriate actions.
  --Airtankers airworthiness and maintenance status will be monitored 
        as the fire season progresses. At appropriate intervals, 
        required inspections and maintenance will be conducted.
  --Airtankers will be pre-positioned, based on projected fire danger 
        levels, in the context of values to be protected.
  --Airtankers will be utilized primarily for initial and extended 
        attack. Large fire airtanker use will be determined on a case-
        by-case basis, or when lives or communities are at risk.
    Communicate.--Safety is a responsibility we all share.
    See it--Say it--Fix it.--You owe it to yourself, your crew, and 
those around you.
                                summary
    Dynamic tensions define today's Fire and Aviation Management 
Program. These tensions can only be managed successfully with adherence 
to established safe practices procedures, attention to critical fire 
behavior risk thresholds, and sound judgment.
    At the highest levels of activity, when suppression demands are 
high and resources are scarce, Line Officers and Fire Managers must 
maintain a high level of situational awareness, anticipate needs, and 
proactively lead.
    Paying attention to relationships and maintaining open lines of 
communication pay big dividends when people and organizations are under 
stress. We are stronger when we work together and more effective when 
we share information.
    Early projections indicate that this fire season may be another 
difficult year for us. The steps outlined in this action plan are 
intended to increase margins of safety and preparedness with the aim of 
reducing the costs, losses, and damages that have become more common as 
fuels have built up in drought areas where people live.
    However, over the long-term, an aggressive fuel treatment program 
is the surest means of ensuring firefighter and public safety, 
reversing wildfire costs, and restoring healthy, resilient forests and 
grasslands (Wildfire Suppression: Strategies for Containing Costs, NAPA 
Report, 09/02).
    We will continue to pursue an accelerated fuel treatment program. 
Programs that focus on restoration of fire-dependent ecosystems and 
better integrate fuel management, forest health, wildlife, range, 
watershed, and other available dollars will be more aggressively 
explored.

                          SUBCOMMITTEE RECESS

    Senator Burns. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 10 a.m., Thursday, April 
10, in room SD-124. At that time we will hear testimony from 
the Honorable Gale A. Norton, Secretay of the Interior.
    [Whereupon, at 11:36 a.m., Thursday, March 20, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday, 
April 10.]

</pre></body></html>
